<html>
<title> - REALIZING THE CONSERVATION BENEFITS OF PRECISION AGRICULTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


      REALIZING THE CONSERVATION BENEFITS OF PRECISION AGRICULTURE

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

                           Serial No. 116-21


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-752 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................    28
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     3
    Prepared statement...........................................     3
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2

                               Witnesses

Madison, Dustin, Producer and Farm Manager, Engel Family Farms, 
  Louisa, VA.....................................................     5
    Prepared statement...........................................     6
Karsten, Ph.D., Heather D., Associate Professor, Crop Production/
  Ecology, Department of Plant Science, College of Agricultural 
  Sciences, Pennsylvania State University, University Park, PA...     9
    Prepared statement...........................................    10
    Supplementary material.......................................    43
Cameron, Don J., Vice President and General Manager, Terranova 
  Ranch, Inc.; Owner, Prado Farms, Helm, CA; on behalf of 
  California Farm Bureau Federation..............................    18
    Prepared statement...........................................    20

 
      REALIZING THE CONSERVATION BENEFITS OF PRECISION AGRICULTURE

                              ----------                              


                       TUESDAY, OCTOBER 22, 2019

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, O'Halleran, 
Pingree, Axne, Schrier, LaMalfa, Allen, Abraham, and Conaway 
(ex officio).
    Staff present: Prescott Martin III, Felix Muniz, Jr., 
Alison Titus, Josh Maxwell, Ricki Schroeder, Patricia Straughn, 
Dana Sandman, and Jennifer Yezak.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing on the Subcommittee on Conservation 
and Forestry entitled, Realizing the Conservation Benefits of 
Precision Agriculture, will come to order.
    Good afternoon. I would like to welcome everyone to the 
Conservation and Forestry Subcommittee's hearing on realizing 
the conservation benefits of precision agriculture. I would 
like to thank Ranking Member LaMalfa for his engagement on this 
issue, as well as each Subcommittee Member for taking part in 
the hearing today. I would like to welcome one of my 
constituents, Mr. Dustin Madison, from Louisa County, Virginia. 
Dustin, I am glad that we have your expertise from farming your 
own land and serving many other farmers in forming our 
discussion today. Your knowledge from being a technical service 
provider for NRCS, a certified Virginia resource management 
planner, and a certified crop advisor will be especially 
useful. It was a real pleasure to visit Louisa County as part 
of my 2 day farm tour in August, and it is great to have you 
here today.
    I would also like to welcome our other witnesses, Mr. Don 
Cameron and Dr. Heather Karsten. Thank you for traveling to 
Washington, D.C. to share your insight.
    As technology within the agriculture industry continues to 
make leaps and bounds, we are seeing farmers grow more food 
while more judiciously using inputs such as water and 
fertilizer. Precision agriculture offers producers 
opportunities to farm more efficiently and more sustainably. 
Farmers know that growing conditions can vary significantly, 
even within the same field, and these factors range from soil 
type and chemistry to fertility and productivity, to the amount 
of water in the ground. Precision agriculture makes it possible 
to calculate how these differences translate into different 
levels of inputs so that each part of the field is only getting 
as much as it needs. This means that farmers are saving time, 
fuel, and money, while increasing their output. It is more 
efficient and it yields better crops.
    Precision technology has applications for animal 
agriculture as well. It is now possible to monitor feed 
production, herd health, and energy use on farms to improve 
efficiency, productivity, and the quality of animal care. And 
central to our hearing today, precision agriculture enables 
farmers to enhance production and lower their costs, while at 
the same time delivering environmental benefits. Site-specific 
crop management translates into less soil erosion and nutrient 
run-off. It also improves soil health and water quality, while 
also providing insight into producers' environmental footprint 
and creating opportunities for them to adopt practices that 
enhance both yields and conservation.
    Today, I am eager to discuss how farmers are using 
precision agriculture technologies, what successes they are 
experiencing, and what barriers are impairing their ability to 
implement precision ag. And how does this impact their 
productivity, their competitiveness in the United States and 
global markets, and their environmental footprint? It is also 
my hope that today's hearing can serve as a launch pad for us 
to discuss ways we here in the House of Representatives can 
help more farmers adopt these tools.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good afternoon. I would like to welcome everyone to this 
Conservation and Forestry Subcommittee hearing on ``Realizing the 
Conservation Benefits of Precision Agriculture.''
    I would also like to thank Ranking Member LaMalfa for his 
engagement on this issue, as well as each Subcommittee Member for 
taking part in the hearing today.
    I want to welcome one of my constituents, Dustin Madison from 
Louisa County, Virginia. Dustin, I'm glad that we will have your 
expertise from farming your own land and serving many other farmers 
informing our discussion today. Your knowledge from being a Technical 
Service Provider for NRCS, a certified Virginia Resource Management 
Planner, and a Certified Crop Advisor will be especially useful, I am 
sure. It was a real pleasure to visit Louisa County as part of my 2 day 
farm tour in August, and it's great to have you here today.
    I would also like to welcome our other witnesses, Mr. Don Cameron 
and Dr. Heather Karsten. Thank you for traveling to D.C. to share your 
insight. As technology within the agriculture industry continues to 
make leaps and bounds, we're seeing farmers grow more food while more 
judiciously using inputs such as water and fertilizer. Precision 
agriculture offers producers opportunities to farm more efficiently and 
more sustainably.
    Farmers know that growing conditions can vary significantly, even 
within the same field. These factors range from soil type and 
chemistry, to fertility and productivity, to the amount of water in the 
ground.
    Precision agriculture makes it possible to calculate how these 
differences translate into different levels of inputs--so that each 
part of the field is getting only as much as it needs.
    This means that farmers are saving time, fuel, and money while 
increasing their output. It's more efficient and it yields better 
crops. Precision technology has applications for animal agriculture as 
well. It is now possible to monitor feed production, herd health, and 
energy use on farms to improve efficiency, productivity, and the 
quality of animal care.
    And central to our hearing today, precision agriculture enables 
farmers to enhance production and lower their costs, while at the same 
time delivering environmental benefits.
    Site-specific crop management translates into less soil erosion and 
nutrient runoff. It also improves soil health and water quality, while 
also providing insight into producers' environmental footprint and 
creating opportunities for them to adopt practices that enhance both 
yields and conservation.
    Today, I'm eager to discuss how farmers are using precision ag 
technology--what successes are they experiencing and what barriers are 
impairing their ability to implement precision ag? And how does this 
impact their productivity, their competitiveness in U.S. and global 
markets, and their environmental footprint? It's also my hope that 
today's hearing can serve as a launch pad for us to discuss ways we 
here in the House can help more farmers adopt these tools.
    With that, I would like to recognize the Ranking Member, the 
distinguished gentleman from California, Congressman Doug LaMalfa, for 
5 minutes.

    The Chair. And with that, I would like to recognize the 
Ranking Member, the distinguished gentleman from California, 
Congressman Doug LaMalfa, for 5 minutes.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Thank you, Madam Chair Spanberger, for holding 
today's hearing, and the way we conduct this Committee. I 
really appreciate it.
    We are here, of course, as you mentioned, to examine the 
benefits of precision agriculture on conservation, which is 
indeed one of the many tools we have at our disposal to help 
improve conservation practices on farms and ranches.
    Indeed, rapid advances in technology over the last several 
years--I would say several decades--has made precision 
agriculture more important because of the benefits it will 
provide. Going back to the Dust Bowl era is really when we 
started learning the importance of this in this country, and 
the ASCS was formed, Ag Stabilization and Conservation Service. 
You hear those words, stabilization and conservation, very 
important as the lessons we learned from the Dust Bowl era and 
since.
    Precision agriculture has increased productivity and in my 
own experience growing rice with fewer inputs required on our 
land, water savings, less fertilizer, less pesticides needed. I 
spent a lot of hours myself on a tractor with a laser-guided 
leveler making our fields flat and almost perfect to within \1/
8\", theoretically, on the soil there in order to use less 
water and keep those weeds from getting away from us, therefore 
being able to use less pesticides to control that pesky water 
grass. It has really been important to see that laser 
technology now morph into GPS, which is even more precise. It 
actually will take into account the curvature of the Earth. You 
want level water, you are going to get level water that way in 
rice. But in so many other ways, these inputs have been helpful 
in so many aspects of agriculture to bring that precision and 
be able to make our inputs go farther, and using the things we 
don't want to have to use much less.
    When we talk about the overlap again, if you are able to 
run your disc, your implement on a much narrower gap and not 
waste time doing the same acres over and over again, it is 
better for soil, and it is even easier on the operator to not 
have to be so on target the whole time, every pass all day, 
that it is better on the employees.
    In a challenging period when farmers face these price 
pressures for production, price pressures for increased costs 
of inputs, precision agriculture really helps give you an edge 
in order to stay profitable and competitive.
    There are many benefits we will talk about this afternoon, 
but we have a chance to hear from people first-hand about this 
technology. In the 2018 Farm Bill, we also included several 
provisions to extend broadband so we can bring more broadband 
to Americans in the most rural areas of the nation. It is 
important in being able to help utilize this technology and the 
data that is gathered when we are out there tracking yields. 
For example, on my rice combine you are able to map out what 
the yields are doing in a field, and that helps you decide how 
you want to treat that field the next year with how much 
fertilizer or other issues you could be tracking as you go. 
Broadband is important for a lot of different aspects of 
agriculture. We have more and more of that so we can transfer 
this data and use it and take the most advantage of it.
    The farm bill had EQIP that was able to help with these 
conservation practices and this precision that we need. And so, 
I could go on and on about this, but I am a true believer 
because we use it ourselves and I have seen so many of my 
neighbors benefit from being able to further track your yields, 
fertilizer inputs, and all those things that make this 
technology more and more important as we go forward.
    I saw some very impressive technology down in Mr. Panetta's 
district here on a recent tour that will be very exciting to 
see that come forward in the future as well.
    So with that, I will turn it back to our Chair, and I 
appreciate the time here today.
    The Chair. Thank you.
    In consultation with the Ranking Member and pursuant to 
Rule XI(e), I want to make other Members of the Subcommittee 
aware that Members of the full Committee may join us today, and 
I thank the Ranking Member of the full Committee for joining us 
here today.
    The chair would request that other Members submit their 
opening statements for the record so witnesses may begin their 
testimony, and to ensure there is ample time for questions 
today.
    I would like to welcome our witnesses. Thank you very much 
for being here today. It is my pleasure and my privilege to 
welcome Mr. Dustin Madison from Louisa County, Virginia, a 
constituent of Virginia's 7th Congressional District. Mr. 
Madison, it is great to have you join us here today. Mr. 
Madison grew up on his family's crop and cattle farm in Louisa, 
and now operates 100 acres of his own farmland. He also manages 
agronomy and conservation initiatives on Engle Family Farms, 
which raises corn, soybeans, wheat, and other crops on 20,000 
acres across the Commonwealth. Mr. Madison is a graduate of 
Virginia Tech.
    Our next witness is Dr. Heather Karsten, Associate 
Professor within the Department of Plant Science at 
Pennsylvania State University. Dr. Karsten teaches and conducts 
research and extension education in agronomy and agroecology. 
Her interdisciplinary cropping research seeks to develop 
systems to sustain long-term farm productivity and 
profitability while reducing environmental impacts.
    And for our final witness, I will yield to my colleague 
from California for the introduction.
    Mr. LaMalfa. Thank you. Thank you again for the 
opportunity.
    As we know, many ranchers and farmers in California have 
adopted much of this technology, as a lot of it evolves in 
California. And so, I am pleased to be able to have one of 
those producers here today.
    Mr. Don Cameron, since 1981, has been the Vice President 
and General Manager of Terranova Ranch in Helm, California, 
where they currently grow over 25 different crops. Twenty-five. 
Sometimes it is plenty to do one where I am from, but in 
addition to his work at Terranova Ranch, Mr. Cameron owns Prado 
Farms in Fresno County, California. It is an honor to have you 
here today representing California, along with some of your 
delegation here.
    We have a great panel of witnesses in front of us today, 
and I am glad to have them travel here all the way to D.C. to 
spend time with us and help educate all of us, our staffs, and 
those that are going to see this testimony on TV. Thank you 
once again, Chair Spanberger, and I yield back.
    The Chair. We will now proceed to hearing from our 
witnesses. Each of you will have 5 minutes to present 
testimony. When the light turns yellow, that indicates there is 
1 minute left to complete your testimony.
    Mr. Madison, may you please begin when you are ready?

 STATEMENT OF DUSTIN MADISON, PRODUCER AND FARM MANAGER, ENGEL 
                    FAMILY FARMS, LOUISA, VA

    Mr. Madison. Good afternoon, Chair Spanberger, Ranking 
Member LaMalfa, and Members of the Subcommittee. I want to 
thank you all for the opportunity to be here today and talk 
about this topic that is pretty near and dear to me, as it is 
part of my everyday life.
    Precision and conservation and agriculture really go hand 
in hand, and it is something that I touch pretty much from sun 
up to sun down.
    I think my time here is best spent telling you that 
conservation and precision agriculture are really, really big 
topics, and we could go a long time and not really scratch the 
surface. I am going to shorten that as much as I can and start 
with a little background on conservation.
    Even in the 1990s, here in Virginia conservation and 
agriculture were not even in the same conversation. They were 
two different things. We farmed and then you recycled or 
clipped the little plastic rings around a six-pack so that you 
didn't hurt the birds and the fish. Two different worlds. 
Eventually, we figured out that wasn't a great idea. I could 
plow a field and it could rain the next day. All my dirt, all 
my topsoil, all my nutrients would go down a hill into the 
creek, ending up somewhere in the Chesapeake Bay.
    Fast forward to today, we do a lot better. No-till cover 
crops, things like that are big conservation words, but they 
are a big part of our lives. That is a really big change. I 
don't think I can overstate that enough.
    Switch over to precision ag. In the 1990s, it really wasn't 
a thing either. We didn't know we would have the capabilities 
to do some of the things we can do. We can farm down to 1". Our 
fertilizer doesn't overlap. We know exactly where we are all 
the time. Our equipment is so good that we can watch movies on 
an iPad while we are planting and harvesting. We just have to 
hit pause to turn around. That is how far we have come.
    Now, one of the best parts about the precision ag and the 
conservation in ag is if you combine the two, we can really 
make ourselves a lot more profitable, and we can verify that. 
The precision ag allows us to look at our information after 
years over, and say, ``Hey, we did a better job and we can see 
it in the bank account.'' That is the most important thing 
there is to farming, especially right now. If we can make 
better decisions and we can not lose money at the end of a 
year, that is huge. We never would have been able to quantify 
that without some of the benefits of precision ag, and we 
couldn't have recognized it without the benefits of 
conservation.
    That is as simple of a message that I can really give 
anybody is that it is the same as in any business. Put your 
money where it counts, make good decisions, use all the data 
you have available to make those decisions, and hit the repeat 
button.
    I have spent a lot of time working with other growers, 
talking about precision ag, but more talking about conservation 
in ag. My role as a registered TSP through NRCS has given me 
the chance to go out and talk to people and see what they are 
doing now, what they could be doing, and maybe find out why 
they are not doing anything differently. But again, there are a 
lot of pieces to that puzzle, but at some point we have to 
figure it out by being on the ground, talking to them, figuring 
out what it is we can do. Is it more money? Is it more 
incentive? Is it just somebody there to hold your hand when you 
need some help? What is it going to take to do a better job?
    I know farmers are willing to step up and do that, not only 
to help the environment, because things look better when they 
do, but to keep their businesses going, which is at the end of 
the day, that is all our main goal.
    I want to thank you all again for the chance to be here. 
This really is an honor. Thanks.
    [The prepared statement of Mr. Madison follows:]

Prepared Statement of Dustin Madison, Producer and Farm Manager, Engel 
                        Family Farms, Louisa, VA
    Good morning, Chair Spanberger, Ranking Member LaMalfa, and Members 
of the Subcommittee. Thank you for the opportunity to testify on the 
important topic of precision agriculture in conservation. My name is 
Dustin Madison, and along with operating 100 acres of my own farmland 
in Louisa County, Virginia, I manage agronomy and conservation 
initiatives on Engel Family Farms. We raise corn, soybeans, wheat and 
other crops on 20,000 acres across the Commonwealth, spread out over 17 
counties.
Conservation + Agriculture
    To understand the conservation benefits of precision agriculture, I 
would like to first pull the precision piece out, and just look at the 
history of conservation and agriculture. Conservation and agriculture 
have a different relationship than they did 40, 30, or even 10 years 
ago. My impression of ``conservation'' in the 1990s was that it was all 
about rainbows and unicorns living in lush green fields, contrasting 
the industrial world. We recycled aluminum and cut the plastic rings 
when you bought a six-pack to protect the fish and birds, but 
agriculture didn't really fit into the picture. Farm work was always 
messy; too muddy or too dusty. It came with the territory.
    Day after fall day, I would till fields until 9 or 10 at night, 
then go home and eat the dinner my mom had left in the refrigerator. If 
it rained the next day, all that nutrient-rich top soil washed down the 
hill, into a creek, and eventually into the Chesapeake Bay. That's just 
the way things were. We certainly didn't want to see our hard work and 
money get washed out of the fields that we were betting our whole 
year's income on. We did our work the same way it had always been done 
and essentially rolled the dice. Conservation practices address a lot 
of these issues now, but back then, we just didn't put it together. 
Conservation was one thing and agriculture was another.
    Fast forward into the early 21st Century, and we have the early 
adopters of precision agriculture. Using computers onboard our 
tractors, harvesters and other equipment, we found a reliable method of 
collecting millions of data points every time we crossed a field. As 
these layers of data accumulated, it became easier to pick out trends 
and patterns in our fields that we could only get before from memory, 
gut feelings and countless notes scribbled down and lost amongst the 
``file cabinet'' that was the dashboard of our pickup trucks.
    Now, what we call conservation practices are some of the most 
profitable management decisions we can make, in a large part because of 
precision ag. What's even better is that we can further utilize the 
components of precision ag at year's end to measure and verify the 
financial impacts of those decisions.
    For example, we can easily look at trends of poor yields and trace 
the causes back to poor soil types that leach fertilizers rather than 
hold them in a root zone for a productive crop. Then, we can identify 
the specific areas that aren't working and stop farming them. A field 
may go from 25 acres down to 23 acres using this method, but overall 
farm profitability can often rise in these situations.

    The message here was very simple: Don't invest your input dollars 
into a part of your business that won't produce a financial return. 
Make a better decision, save that money, and use it somewhere that 
creates value for your business. Conservation practices are those 
better decisions, and precision ag is the tool that allows you to 
quantify them.

    Because of a pretty rudimentary function of precision ag, we in 
agriculture made a historically complex problem into a straightforward 
business decision, while also taking away many of the variables that 
easily cloud judgment. I know of countless examples of situations like 
this, all supporting the notion that conservation in ag, through 
precision ag as a foundation, can create positive environmental change, 
while at the same time increasing farm profitability (which is, 
selfishly, of more benefit to producers everywhere).
    There are better people than me for describing the inner workings 
of computers, data processing and in-field equipment integration, which 
are the backbone of precision agriculture. But as a farmer, whose 
livelihood depends on producing commodities, I can talk all day about 
the importance of finding ways to make better, profitable decisions so 
we can remain in business. If there is a way to do what we do better 
for the environment and, in turn, for our bank accounts, farmers will 
respond. We don't have the option not to.
Barriers
    For all the benefits to integrating precision ag onto every farm, 
there are significant barriers to entry for many producers.

  1.  Technology is expensive. We have reached a time when some ag 
            technology has been around long enough that there are more 
            economical ways to achieve precision goals, but more 
            economical doesn't necessarily mean affordable for 
            everyone. The larger farmers can buy in easier simply 
            because of scale. Smaller farmers are more limited.

  2.  I could show you all kinds of cool technology that can provide 
            valuable data and perform actions that really add to the 
            bottom line. However, tech can fail at any moment for 1,000 
            reasons: No Internet connectivity, bugs in the software, 
            satellite interference, human frustration or even problems 
            off the farm: If a service provider's software is down, we 
            can do everything right and still have problems with our 
            data.

  3.  Farmers need to understand the benefits of conservation through 
            precision agriculture, and outreach and communication of 
            available resources are needed to have more widespread 
            adoption. This dialogue between farmers and local technical 
            experts needs to be ongoing so producers can adopt greater 
            levels of conservation and be aware of emerging 
            technologies and solutions. Most years, local Soil and 
            Water Conservation Districts and the U.S. Department of 
            Agriculture Natural Resources Conservation Service (NRCS) 
            are not able to meet the demand from farmers for these 
            practices because of either a lack of enough funding, not 
            having enough technical staff to certify the practice or 
            review the purchase of equipment, or not having enough 
            technical staff to help farmers better understand the 
            benefits of utilizing these practices or equipment.
Solutions
    I do think the continued efforts by our Soil and Water Conservation 
District and NRCS staff have helped us tremendously in getting to where 
we are today in our ag conservation efforts in a relatively short 
period of time. However, going any further will take continued work, as 
well as recognition that old methods of communicating and incentivizing 
our farmers may need updating.

  1.  The average age of an American farmer is 58 years old. Most of 
            those farmers learned about agriculture from the generation 
            before them and will probably teach the next generation 
            down. The people on the higher end of the age spectrum 
            didn't get into conservation work too heavily, and they 
            certainly didn't get into precision ag. So, while they are 
            passing down years of practical experience and intuition, 
            there is a large group of beginning farmers who will have 
            to do all the heavy lifting in adopting these parts of the 
            industry. Education and outreach focusing on farmers under 
            the average age will help close that gap.

  2.  We need to make sure financial incentives are there for farmers 
            who put conservation practices in place, especially those 
            who are putting precision ag to work. State and Federal 
            cost-share dollars mean more than most can imagine when 
            making the large up-front purchases required to make 
            precision ag work. As mentioned before, the overarching 
            value of precision ag is that it provides a data-driven, 
            informational foundation that so many conservation 
            practices can be built upon. Especially as future farmers 
            are expected to be better financial managers, they will be 
            more receptive to tools that can affect their 
            profitability.

  3.  We need to remember that partnerships are integral in making 
            something as big as conservation in agriculture happen when 
            there are so many independent stakeholders. I've 
            participated in grants from NGOs that were able to get 
            significant work done in the Chesapeake Bay Watershed. I've 
            received active Environmental Quality Incentives Program 
            (EQIP) contracts through NRCS. But, most interestingly to 
            me, is that NRCS already has a program that combines 
            Federal incentives administered through NRCS with private 
            conservation planning and installation. Private individuals 
            can become Technical Service Providers (TSPs) for NRCS and 
            take some of the workload off of existing staff on an as-
            needed basis. This is a highly under-utilized program that 
            receives little attention from the agency or farmers. Most 
            on both sides don't even know it exists. I know this 
            because I have been one of only two registered TSPs in 
            Virginia for nearly 5 years. I could have an impact on both 
            precision ag use and conservation planning, yet I have been 
            asked to write a total of three conservation plans 
            statewide. The spirit of this program is exactly what gets 
            things done on the ground: Federal help for farmers, 
            managed through local offices and assisted by qualified 
            private service providers when NRCS staff is overloaded 
            with work.

    Farming has evolved a great deal from both a conservation and 
precision agriculture perspective in just the last 30 years, and will 
continue to do so, especially here in the Chesapeake Bay Watershed, 
where we symbolize so much on a national scale. If we as producers 
continue to be innovative and earn the support from the non-farming 
community that we so badly need, there is no limit to what we can 
accomplish in the years to come.
    I appreciate the invitation to speak before the Subcommittee this 
morning on this important topic and look forward to answering any 
questions you might have.

    The Chair. Thank you very much, Mr. Madison. We appreciate 
your comments.
    Dr. Karsten, you may begin when you are ready.

       STATEMENT OF HEATHER D. KARSTEN, Ph.D., ASSOCIATE 
    PROFESSOR, CROP PRODUCTION/ECOLOGY, DEPARTMENT OF PLANT 
 SCIENCE, COLLEGE OF AGRICULTURAL SCIENCES, PENNSYLVANIA STATE 
                UNIVERSITY, UNIVERSITY PARK, PA

    Dr. Karsten. Thank you, Chair Spanberger, Ranking Member 
LaMalfa, and distinguished Members of the Committee for this 
opportunity to discuss the conservation benefits of precision 
agriculture, which are significant.
    Precision agriculture technologies enable farmers to 
understand and manage the spatial variability on their farms 
and better respond to changes during the season. These tools 
can help farmers be more cost-effective and apply inputs and 
management, reduce environmental impacts of agriculture, and 
manage for resilience and ecosystem services.
    For instance, with fine resolution knowledge about their 
fields, farmers can avoid over-applying or applying inputs 
where it would not be cost-effective, such as fertilizers, 
pesticides, seeds, irrigation. This can avoid loss of inputs to 
the environment, reduction of water resources, or in the case 
of pesticides, the loss of biodiversity and the risk of 
selecting for pest resistance to pesticides.
    Precision agricultural technologies can also help farmers 
identify zones or subfields that could be more profitable with 
different management. That can also provide conservation 
benefits. For instance, in zones that are not profitable or 
low-profit, farmers might decide to plant different crops that 
are better suited and more profitable, or adopt conservation 
practices that can reduce erosion, build soil health, and be 
more resilient to climate change. There are zones that may be 
more vulnerable to extreme weather and may be better suited for 
conservation or set-aside plantings. And when they are assisted 
with decision support tools and decision support systems that 
include ecosystem, agroecosystem, computer simulation models, 
land managers can also evaluate the impact of possible 
management changes. Decision support systems can help them 
identify practices that best meet their goals, whether they 
include profitability, resilience to stress, long-term 
productivity, and environmental stewardship.
    The greatest barriers of farmer adoption, from what we 
understand, are the costs of capital investments needed to 
adopt precision technologies, the technical expertise needed, 
and the perceived risks of adoption. Land-grants are ideally 
suited to address these adoption barriers. With our mission of 
education, research, and extension, education land-grants can 
help farmers of all sizes benefit from precision technologies. 
We are, and we can do more, to teach students to understand and 
benefit from the site-specific knowledge and precision ag tools 
to enhance their farm profitability and environmental benefits. 
Our graduates can contribute to developing these technologies 
and assisting others with adoption.
    Through research, we develop tools that can improve access 
to fine resolution information and work with farmers to provide 
more reliable recommendations. We can increase access with 
tools that are low-cost, free online or open access or open 
source, and we can improve our understanding and the 
predictions of how agroecosystems respond to management changes 
and extreme weather so that we can better identify which crops, 
soils, pests, and water management practices are most 
resilient, profitable, and environmentally friendly.
    And finally, through extension, we can help farmers adopt 
precision agricultural technology and evaluate the tools on 
their farms. Through that boots-on-the-ground approach, 
extension can assist growers and others in the agricultural 
community, including folks in our assistance agencies, 
consultants, and input providers, to help benefit farmers and 
conservation goals and long-term sustainable productivity.
    Thank you. I look forward to taking your questions.
    [The prepared statement of Dr. Karsten follows:]

 Prepared Statement of Heather D. Karsten, Ph.D., Associate Professor, 
   Crop Production/Ecology, Department of Plant Science, College of 
Agricultural Sciences, Pennsylvania State University, University Park, 
                                  PA *
---------------------------------------------------------------------------
    * Editor's note: Dr. Karsten submitted an updated version of her 
statement. due to the number of changes it has been incorporated as 
Supplementary Material, and is located on p. 43.
---------------------------------------------------------------------------
    Chair Spanberger and distinguished Members of the Committee, thank 
you for this opportunity to discuss the conservation benefits of 
precision agriculture, some examples of precision agriculture, barriers 
to adoption and the role of the land-grant universities. Precision 
agriculture technologies are and their potential applications for 
conservation benefits are diverse and significant. Precision 
agriculture technologies utilize spatial and temporal agroecosystem and 
hydrologic data in geographic information systems (GIS) software that 
can be linked to automate equipment navigation of agricultural 
operations such as planting and spraying operations via robotic 
technologies. In addition, real-time data from sensing technologies 
such as in-field sensors, remote sensing or thermal imaging can be 
integrated with the GIS data and historical management data in decision 
support tools (DST) and decision support systems (DSS) (Drohan, et al., 
2019). Agroecological and hydrologic computer simulation models are of 
utilized in decision support systems along with other factors such as 
weather forecasts and/or economic data to provide farmers and land 
managers with site-specific management options that can result in 
reduced environmental impact and economic costs of agricultural 
activities. For instance, integrating maps of soil characteristics such 
as fertility, slope and drainage; crop yields, and pest infestations 
along with weather forecasts can enable managers identify zones for 
specific application rates of seeds, nutrients, pesticides and 
irrigation water at the optimal time with variable rate technologies 
(VRT). Similarly, livestock managers can utilize precision feeding to 
develop nutritionally balanced cost-effective rations that meet the 
metabolic needs of livestock at various life stages without excess 
nutrients.
Adoption Barriers
    A recent analysis of multiple U.S. survey data on the adoption 
precision agriculture since 2000, suggested some rapid adoption as well 
as barriers to adoption. Adoption of global navigation satellite 
systems (GNSS) with auto guidance and technologies such as sprayer 
control and planter row or section automatic shutoffs has been 
relatively rapid for agronomic crops (see Figure 3 from Lowenberg-
DeBoer and Erickson, 2019), while adoption of variable rate technology 
(VRT) has been relatively slow and ``rarely exceeds 20% of farms'' (see 
Fig. 4 from Lowenberg-DeBoer and Erickson, 2019). The study's authors 
summarized three hypotheses for the slow rate of adoption that were 
frequently described in the surveys cited: i. the cost of VRT was too 
high, ii. ``more reliable VRT decision rules'' were needed, 
particularly for nitrogen, and iii. farmers weren't convinced VRT would 
increase their profits (Lowenberg-DeBoer and Erickson, 2019).
Fig. 3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Planted area by crop in the United States where Global 
        Navigation Satellite Systems (GNSS) auto guidance was used, 
        2000 to 2016.
Fig. 4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Planted area by crop in the United States where variable rate 
        technology (VRT) was used for any purpose, 1998 to 2016.

          Figures 3 and 4 from Lowenberg-DeBoer J. and B. Erickson. 
        2019. Setting the Record Straight on Precision Agriculture 
        Adoption. Agronomy Journal 2019 111: 1535-1551, doi:10.2134/
        agronj2018.08.0535.

    Additional adoption barriers that others describe include the need 
for and technical expertise needed to install and operate precision 
technologies, and the fact that new equipment is needed to be 
compatible with the new technologies, as well as additional factors 
that are summarized and shown below in Table 1 from Wolfe and Richard 
(2017).

   Table 1--Overview of barriers to the adoption of pro-environmental
  technological innovations (general and agriculture specific) based on
  literature review (from Long, et al. [31]. Sources are listed in [31]
                         and not repeated here.
------------------------------------------------------------------------
        Barrier                                           Sources
------------------------------------------------------------------------
Economic                High initial investments   (Bogdanski, 2012;
                        Poor access to capital      Brunke, et al.,
                        Hidden costs                2014; Cullen, et
                        Competing financial         al., 2013; del Rio
                         priorities                 Gonzalez, 2005;
                        Long pay-back periods       Faber and Hoppe,
                         (ROI)                      2013; Hoffman and
                        Switching costs/existence   Henn, 2008; Luken
                         of installed base          and Van Rompaey,
                        High implementation costs   2008; Luthra, et
                         (actual and perceived)     al., 2014; McCarthy,
                        Uncertain returns and       et al., 2011;
                         results                    Montalvo, 2008)
                        Temporal asymmetry
                         between costs and
                         benefits
                        Over discounting the
                         future
------------------------------------------------------------------------
Institutional/          Low institutional support  (Bogdanski, 2012;
 regulatory             Use of overly scientific    Eidt, et al., 2012;
                         language (Jargon)          Luthra, et al.,
                        Farmer's knowledge not      2014; Montalvo,
                         considered in R&D          2008)
                        Lack of regulatory
                         framework
                        Prohibitively
                         prescriptive standards
------------------------------------------------------------------------
Behavioral/             Lack of management         (Brunke, et al.,
 psychological           support/awareness          2014; Eidt, et al.,
                        Conflict with traditional   2012; Hoffman and
                         methods                    Henn, 2008; Johnson,
                        Overly complex              2010; Ratten and
                         technologies               Ratten, 2007;
                        Results/effects of          Sneddon, et al.,
                         technology difficult to    2011 ; Vishwanath,
                         observe                    2009; Wheeler, 2008)
                        Farmer's beliefs and
                         opinions
                        Low trust of advisers or
                         consultants/lack of
                         acceptance
                        Irrational behavior
                        Negative presumed
                         assumptions
------------------------------------------------------------------------
Organizational          Lack required              (Brunke, et al.,
                         competencies/skills        2014; Faber and
                        Poor readiness              Hoppe, 2013;
                        Poor information            Johnson, 2010; Luken
                        Inability to assess         and Van Rompaey,
                         technologies               2008; Luthra, et
                        Overly short-term/          al., 2014; Montalvo,
                         perverse rewards           2008)
                        Organizational inertia/
                         habitual routines
------------------------------------------------------------------------
Consumers/market        Poor information           (Bogdanski, 2012;
                        Lack market                 Bohnsack, et al.,
                         attractiveness/do not      2014; Brunke, et
                         align to preferences       al., 2014; del Rio
                        Uncertainty                 Gonzalez, 2005;
                        Consumers/farmers level     Johnson, 2010;
                         of motivation              Luthra, et al.,
                        Market uncertainty          2014)
------------------------------------------------------------------------
Social                  Social/peer pressures      (Montalvo, 2008)
------------------------------------------------------------------------

    For farmers with limited capital facing small profit margins, the 
capital investment required for new precision agriculture technologies 
and the technical expertise required can be significant barriers. Land-
grant university researchers and educators such as my colleagues at 
Penn State are currently working with farmers, the national 
laboratories and government agencies (ex. NRCS), as well as private-
sector partners to develop low cost new technologies and open-source or 
free software and decision support tools and systems that can be 
operated on smartphones or personnel computers. Land grants are also 
well-positioned to conduct objective, trusty-worthy assessments of 
precision technologies, while training students, educators and the 
workforce to develop, improve and assist in the use of precision 
technologies.
    Decision support systems can empower farmers and producers to fine-
tune their management practices when coupled with economic incentive 
policies that promote adoption (Drohan, et al., 2019). Support for on-
farm assessment and peer-to-peer learning also appear facilitate 
adoption of precision conservation technologies. A final report from a 
Penn State interdisciplinary research and extension projected provides 
an example of what DSS can provide. ``There is no one production 
practice that will make or break a herd's profitability . . . . 
Combining financial metrics with decision-making on cropping and 
feeding practices is still a challenge for both producers and 
consultants. . . . The bottleneck is how cropping strategies and animal 
performance influence the whole farm system and the impact to the 
bottom line. Unless nutritionists and crop consultants work with 
financials on a routine basis, it is unlikely they will embrace this 
aspect when working with their clientele.'' (Ishler, et al., 2019).
    Some examples of precision conservation technologies and DSS that 
offer promise of adoption are briefly described. Decision support 
systems (DSS) that produce farm profit maps can enable farmers and land 
managers to identify opportunities to increase their profits while 
reducing their environmental impact. Agroecosystem DSS can identify 
field zones that are consistently low profit or unprofitable enabling 
land-managers to consider alternative managements. Low profit or very 
unprofitable zones also are often zones of significant soil and/or 
nutrient losses associated with soil and landscape factors (Delgado and 
Bausch, 2005; Muth, 2014) as illustrated in Figure 1 from Wolfe and 
Richard, 2017 that may also make them particularly vulnerable to 
extreme weather events such as drought or flooding. For instance, a 
2017 NRCS funded study of over 200,000 acres from nearly 3800 fields on 
136 farms in a dozen states found that (a) more than 90% of fields 
included zones that were losing money due to some combination of risks, 
and (b) over 50% of the unprofitable acres were also acres with 
substantial environmental concerns (Wolfe and Richard, 2017).
Figure 1 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Subfield economic analysis demonstrates high variability in 
        profitability, with a significant fraction of currently farmed 
        acres highly unprofitable for annual crops. Left panel: profit 
        in $ ha^<SUP>1</SUP>; center panel: change in Soil Organic 
        Carbon in kg ha^<SUP>1</SUP>, and right panel, nitrate 
        (NO<INF>3</INF>-N) leaching in kg ha^<SUP>1</SUP>.

          Figure 1 from Wolfe, M.L. and T.L. Richard. 2017. 21st 
        Century Engineering for On-Farm Food-Energy-Water Systems. 
        Current Opinion in Chemical Engineering https://doi.org/
        10.1016/j.coche.2017.10.005.

    Decision support tools that integrate landscape characteristics, 
with crop management history and yields agroecosystem models and 
economic analyses and sensor data can help farmers to identify 
practices for low profit zones to reduce their production costs and/or 
increase their cropping system resilience (Fig. 2. Wolfe and Richard, 
2017).
Figure 2
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Figure 2 from Wolfe and Richard, 2017. Sustainable food-
        energy-water systems are enabled by an expanded precision 
        agriculture toolset that includes economic analysis, payments 
        for ecosystem services, and biomass markets, all managed 
        through decision support systems that go beyond inputs and 
        single crop management to innovative cropping system and 
        landscape design.

    Alternative management scenarios may include reducing fertilizer 
inputs and adopting conservation farming practices (Delgado and Bausch, 
2005, Muth, 2014, Capmourteres, et al., 2018). In zones where annual 
cropping is unprofitable, the establishment of perennial plants for 
bioenergy offers a viable economic alternative (Wolfe and Richard, 
2017) such as shown below in Figure 6 from Brandes, et al., 2018.
Fig. 6
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Average annualized changes in net present value (DNPV) when 
        economically under-performing cropland is converted from corn/
        soybean to switchgrass. Values (in U.S.$ ha^<SUP>1</SUP>) are 
        calculated by dividing the sum of annualized DNPV by the total 
        corn/soybean cropland area per township. Gray areas represent 
        townships without any cropland economically viable in 
        switchgrass. The results assume USDA projected (medium) grain 
        prices, medium switchgrass price, medium switchgrass yield, and 
        that all land is owned by the farm operator.

          Figure 6 from Brandes, E., A., Plastina, and E. Heaton. 2018. 
        Where can switchgrass production be more profitable than corn 
        and soybean? An integrated, sub-field assessment in Iowa, USA. 
        Global Change Biology Bioenergy. 10, 473-488, doi: 10.1111/
        gcbb.12516.

    Planting perennials (Capmourteres, et al., 2018) and removing zones 
from production can also provide multiple conservation benefits for a 
relatively low cost. In Iowa, compared to similar watersheds that were 
100% row-cropped, planting only 10% of a corn-soybean field to prairie 
strips reduced sediment loss by 95%, phosphorus and nitrogen losses by 
90% and 85%, while also providing habitat for biodiversity, such as 
grassland birds and pollinators (Liebman and Schulte, 2015).
    Decision support systems (DSS) such as CropSyst (Stockle, et al., 
2014) that integrate agroecosystem and hydrological models or climate 
projections have also been employed to evaluate various management 
scenarios such as nutrient management or projected climate change 
impacts and mitigation approaches. Land-grants researchers working with 
USDA ARS, other national laboratories, and ``big-data'' have developed 
multiple DST and DSS to provide growers with information to 
strategically reduce soil phosphorus and comply with nutrient 
regulations (Drohan, et al., 2019); and to reduce production costs, 
pesticide applications, and crop damage from insect pests and disease 
infestation through free online real-time pest monitoring websites. 
Some examples of these free online precision technologies and 
additional precision DST and DSS that were developed or are under 
development at Penn State are described below.
    In conclusion, the strength of land-grants and Penn State is in our 
ability to bring together diverse faculty and extension educators to 
work with farmers, USDA partners, national laboratories, and the 
private-sector. With evidence of multiple opportunities for precision 
agriculture and conservation technologies to provide environmental and 
economic benefits, we are advancing the development, application, and 
educational activities to support farmers and land managers in the 
conservation of our agricultural and natural resources.
    A brief description of some additional precision agriculture 
technologies that were developed or are under development at Penn State 
are described below.

  <bullet> PestWatch is a long-term monitoring program developed at 
        Penn State that has expanded from 200+ stations in the East 
        Coast, to 700+ stations nationwide (mostly MS river and east). 
        PestWatch provides guidance for individual producers on the 
        extent and location of various corn pests in the agricultural 
        regions of the eastern United States. The unique use of climate 
        and weather data within PestWatch has led to additional tools 
        for battling brown-marmorated stinkbugs, slugs, and the newly 
        critical insect pest, Spotted Lantern Fly. The core tool is 
        located at: http://www.pestwatch.psu.edu/.

  <bullet> Wheat Fusarium Headblight is the leading plant pathogen of 
        wheat in the United States and abroad. Penn State, along with 
        collaborators at Kansas State and across the Wheat Belt, has 
        developed the Wheat Fusarium Head Blight Prediction Center to 
        provide farmers with actionable information on this crop 
        pathogen. The Prediction Center, and it's associated map tool, 
        has been in continuous use and supported by the USDA Wheat and 
        Barley Scab initiative for more than 19 years. This tool 
        provides daily guidance for farmers across the entire U.S. 
        Wheat growing region. The tool is located at: http://
        www.wheatscab.psu.edu/.

  <bullet> Reducing the risk of crop damage by using drones, to monitor 
        air temperatures on nights when there is frost and sending 
        commands to ground robots with heaters mounted on them so 
        growers can target only those areas most at risk are protected, 
        while minimizing energy use.

  <bullet> Precision, automated irrigation systems (drip irrigation) 
        for tree fruit and vegetable crops that operate on soil 
        moisture sensors and IoT (internet of things) system. The use 
        of precision and automated irrigation systems can maximum the 
        water use efficiency (apply water at right time and right 
        amount), reduce the impact to the environment caused by the 
        nutrient leaking, and save energy and costs.
Predictive Models
  <bullet> Every winter, 30-40% of managed honey bee colonies in the 
        U.S. die. This is an enormous economic cost to beekeepers, and 
        threatens our food security since 75% of our major food crops 
        benefit from the pollination services of honey bees and other 
        insects. Using data provided by Pennsylvania beekeepers, a team 
        at Penn State and the USDA-ARS has developed models which can 
        predict winter survival rates with 70% accuracy. These complex 
        models integrate data on climate, landscape quality, and 
        beekeeper management practices. We have developed an online 
        portal, called Beescape, which allows individuals to evaluate 
        the quality of their landscapes for supporting bee health. We 
        are current integrating our predictive models into Beescape so 
        that beekeepers can understand the risk to their honey bees in 
        their locations, and take steps to improve bee survival. 
        Beescape can easily be adapted to provide information on other 
        measures of honey bee and wild bee health, including honey 
        production and biodiversity. This program is funded by USDA 
        NIFA and the Foundation for Food and Agricultural Research.

  <bullet> In soybeans, we have been working from an extensive dataset 
        (ten states, 3 years, just under 5,400 responses) to determine 
        under what conditions foliar fungicides would be warranted. We 
        have built a global models for (1) management factors, and (2) 
        management in combination with environmental and physiological 
        parameters, all with the goal to understand under which 
        environmental domains might a foliar fungicide show a positive 
        weight (i.e., influence positively the observed yield).
Remote Sensing and Decision Support Technologies
  <bullet> We are actively engaged in applied research to use a 
        combination of sUAS-based (drone-based) sensors, including 
        multispectral cameras and LiDAR sensors in both airborne and 
        terrestrial modes, to develop, test, and apply new techniques 
        to measure forest ecosystem attributes at scales ranging from 
        individual trees to forest stands. We combine emerging low-cost 
        reality capture sensors with a seamless user interface, through 
        custom software applications, to foster automation in the 
        forest industry. We aim to transform the current rudimentary 
        and labor-intensive mensuration methodology employed by 
        foresters through the what we've named the ``RealForests'' 
        system. RealForests fuses low-cost remote sensing hardware and 
        intuitive software design to allow for rapid data collection of 
        key forest attributes for forest appraisal and to support 
        management decisions. Easy data collection integrated into 
        existing field procedures is critical to market entry. Existing 
        algorithms have allowed our team to locate individual tree 
        objects and estimate critical measurements. RealForests will 
        allow the user to add information, such as species 
        identification, that can be linked to objects in the 3D model 
        of the forest created by the system.
References

 
 
 
    Brandes, E., A., Plastina, and E. Heaton.2018. Where can switchgrass
 production be more profitable than corn and soybean? An integrated, sub-
 field assessment in Iowa, USA. Global Change Biology Bioenergy. 10, 473-
 488, doi:10.1111/gcbb.12516.
    Capmourteres, V., J. Adams, A. Berg, E. Fraser, C. Swanton, and M.
 Anand. 2018. Precision conservation meets precision agriculture: A case
 study from southern Ontario. Agricultural Systems. 167: 176-185. https:/
 /doi.org/10.1016/j.agsy.2018.09.011.
    Delgado, J.A. and W.C. Bausch. 2005. Potential use of precision
 conservation techniques to reduce nitrate leaching in irrigated crops.
 Journal of Soil and Water Conservation. 60(6): 379-387.
    Drohan, P., M. Bechmann, A. Buda, F. Djodjic, D. Doody, J.M. Duncan,
 A. Iho, P. Jordan, P.J. Kleinman, R. McDowell, P. Mellander, I.A.
 Thomas, and P.J.A. Withers, et al. 2019. A global perspective on
 phosphorus management decision support in agriculture: Lessons learned
 and future directions. Journal of Environmental Quality. 48: 1218-1233.
 doi:10.2134/jeq2019.03.0107.
    Ishler, V., R. Goodling, T. Beck. 2019. The Impact of Corn Silage
 Harvesting and Feeding Decisions on Income Over Feed Costs. Part of a
 Final Research and Extension Education report that was funded by NESARE
 USDA NIFA. April 11, 2019.
    Liebman, M. and Schulte, L.A., 2015. Enhancing agroecosystem
 performance and resilience through increased diversification of
 landscapes and cropping systems. Elem. Sci. Anth., 3, p. 000041. DOI:
 http://doi.org/10.12952/journal.elementa.000041.
    Lowenberg-DeBoer J. and B. Erickson. 2019. Setting the Record
 Straight on Precision Agriculture Adoption. Agronomy Journal 2019 111:
 1535-1551, doi:10.2134/agronj2018.08.0535.
    Muth, D. 2014. Profitability versus environmental performance: Are
 they competing? Journal of Soil and Water Conservation. 69(6). 203A-
 206A. doi: 10.2489/jswc.69.203A.
    Stockle, C.O., A.R. Kemanian, R.L. Nelson, J.C. Adam, R. Sommer, and
 B. Carlson. 2014. CropSyst model evolution: From field to regional to
 global scales and from research to decision support systems.
 Environmental Modelling & Software. http://dx.doi.org/10.1016/
 j.envsoft.2014.09.006.
    Wolfe, M.L. and T.L. Richard. 2017. 21st Century Engineering for On-
 Farm Food-Energy-Water Systems. Current Opinion in Chemical
 Engineering. https://doi.org/10.1016/j.coche.2017.10.005.
 


    The Chair. Thank you.
    Mr. Cameron, you may proceed when you are ready.

        STATEMENT OF DON J. CAMERON, VICE PRESIDENT AND 
  GENERAL MANAGER, TERRANOVA RANCH, INC.; OWNER, PRADO FARMS, 
    HELM, CA; ON BEHALF OF CALIFORNIA FARM BUREAU FEDERATION

    Mr. Cameron. Thank you, Chair Spanberger, Ranking Member 
LaMalfa, and Members of the Subcommittee for the opportunity to 
testify today on behalf of the California Farm Bureau 
Federation. I am Don Cameron, Vice President and General 
Manager for Terranova Ranch in Helm, California, which is in 
the central San Joaquin Valley. I also serve as President for 
the California State Board of Food and Agriculture.
    The California Farm Bureau represents nearly 36,000 members 
across 53 counties, contributing to the largest ag economy of 
any state in the nation. Our farmers and ranchers provide food, 
fiber, and feed for our local communities, the nation, and 
across the globe.
    At Terranova, as you heard, we produce about 25 different 
crops on 7,000 acres. Some of them include processing tomatoes, 
peppers, onions, carrots, almonds, pistachios, walnuts, and a 
longer list that I won't get into. But our diversified farming 
practices encourage our biological systems to be productive, 
beneficial, and diverse. Our on-farm practices include building 
infrastructure to implement on-farm groundwater recharge, 
installation of pressurized irrigation systems, installation of 
solar generation systems, and irrigation technologies for 
energy efficiency, using practices that help maintain a diverse 
wildlife habitat, and upgrading our farm equipment with cleaner 
engines for better air quality.
    I wish to raise several considerations for the Subcommittee 
to be aware of as you consider Federal policy relative to 
conservation, precision agriculture, and water certainty.
    First, it is essential that farms have flexibility to try 
new ways of farming that might improve practices. The 
practices, while we have great success in some areas, we have 
also had failures in others. The adoption of processes can be 
extremely costly and time consuming. Practices that work well 
for our operation do not necessarily work well for the 
neighboring operation or for another farming region.
    Second, farmers and ranchers are at the ready to adopt new 
technologies and practices, but it is critical that they are 
readily available, scientifically trialed, and affordable to 
the operation and the crops being grown. Pressurized irrigation 
systems are generally more costly to install and operate than 
furrow irrigation techniques, and may not be economically 
feasible for every crop or operation. Additionally, these 
systems may rely on a new skillset and additional investments 
in training that need to be made.
    Third, we must also be cognizant of the unintended 
consequences that can exist with resource decision-making. 
Industrial pumps, motors, on-demand pressurized drips, lines, 
tailwater recovery, recirculation of water for the reuse can 
result in increased energy demand, and a time shift on when 
energy demand occurs. While precision agriculture can assist 
producers while reducing their consumptive water use, the 
unintended consequences can be less water returning to the 
groundwater below the crop.
    In light of these considerations offered above, we also 
offer the following recommendations to the Subcommittee for 
consideration.
    First, the Environmental Quality Incentives Program is by 
far the most utilized program in California, assisting 
producers achieving greater conservation goals. We particularly 
thank you for including funding for the air quality incentives, 
which have been incredibly important to farmers in California 
who face strict air quality standards. The RCPP has also 
allowed infrastructure conveyance to be extended in many areas 
with groundwater return projects, like ourselves. It is 
essential that NRCS technical assistance funding is 
commensurate to voluntary financial assistant levels, assisting 
producers with their adoption.
    Second, it is important to realize that there is no one 
size that fits all for precision ag practices. Each field crop 
and operation will have different conservation and economic 
needs to factor in, and we must be cautious in making value 
judgments and using our motivation and resources to identify 
the proper mix of new or alternative practices or technologies 
that work in each unique circumstance.
    Third, a complete solution that requires both improved 
management of both demand and supply side of the equation. We 
must be doing a better job investing in water infrastructure 
and capturing water resources when they are available. Water 
infrastructure and investment should also be made more 
attractive and affordable for non-Federal interests.
    Access to broadband will help ensure availability of on-
demand regional, statewide, and national weather resources, and 
is foundational for irrigations scheduling and other on farm 
decision making. We recommend that Congress work with the U.S. 
Department of Agriculture, the Federal Communications 
Commission to fund programs to solve these critical rural 
broadband problems.
    The Farm Bureau appreciates the time and attention that the 
Subcommittee has given to this important topic today, and I am 
happy to answer any questions. Thank you for letting me go over 
a minute.
    [The prepared statement of Mr. Cameron follows:]

   Prepared Statement of Don J. Cameron, Vice President and General 
   Manager, Terranova Ranch, Inc.; Owner, Prado Farms, Helm, CA; on 
              Behalf of California Farm Bureau Federation
Introduction
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
on the important topic of realizing the conservation benefits of 
precision agriculture. I am Don Cameron, Vice President and General 
Manager of Terranova Ranch located in Helm, California. I am also the 
Owner of Prado Farms located in Fresno County, California.
    In addition to farming, I currently serve as the President of the 
California State Board of Food and Agriculture and as an appointed 
member to the California Department of Food and Agriculture's 
Environmental Farming Act Science Advisory Panel. I also serve on the 
Board of Directors for the McMullin Area Groundwater Sustainability 
Agency and the Raisin City Water District.
    I am testifying before this Subcommittee on behalf of California 
Farm Bureau Federation. Farm Bureau is a nonprofit, voluntary 
membership organization whose purpose is to protect and promote 
agricultural interests throughout the state of California. Farm Bureau 
is California's largest farm organization, representing nearly 36,000 
members across 53 counties, contributing to the largest agricultural 
economy of any state in the nation. Farm Bureau strives to protect and 
improve the ability of farmers and ranchers engaged in production 
agriculture to provide a reliable supply of food and fiber through 
responsible stewardship of California's resources.
About Our Operation
    The Terranova Ranch was established in Helm, California in the 
early 1980s. At that time, the prominent crops grown were upland 
cotton, alfalfa hay, wheat, and barley. The first vineyards were 
planted in 1981 and in the late 1980s and 1990s the variety of crops 
grown increased to include corn silage, sugar beets and pima cotton. In 
1991, we began growing processing tomatoes with a little over 5,000 
tons produced. At that time, our tomatoes were grown by planting seed 
and practicing furrow irrigation where trenches, or furrows, are dug 
between crop rows in a field. Today, we use transplants and subsurface 
drip irrigation for the 140,000 tons of tomatoes we grow each year.
    I will also add that in 1993, we began farming organically with 15 
acres. Presently we have over 600 acres in organic production. In 2000, 
we began further increasing our variety of crops grown to our present 
number of over 25 different crops on 6,000 acres.
    In 2018, Terranova Ranch, Inc. was recognized with the State of 
California's highest environmental honor, the Governor's Environmental 
and Economic Leadership Award (GEELA), for its efforts in pioneering 
and expanding the practice of on-farm groundwater recharge--
intentionally flooding fields with captured floodwater to replenish 
depleted aquifers. Established in 1993, GEELA is awarded to 
individuals, organizations and businesses that have demonstrated 
exceptional leadership and made notable, voluntary contributions to 
conserving California's natural resources, protecting and enhancing our 
environment, building public-private partnerships, and strengthening 
the state's economy.
    In 2016, Terranova conducted a study where we calculated the 
calories produced by our operation. Our study concluded that Terranova 
Ranch is able to feed 200,000 people a 2,000-calorie diet for a year 
just with what our operation produces. I am very proud of the safe food 
supply and nutrition our farm produces.
Practices Implemented on Our Operation
    At Terranova Ranch, we have concentrated our attention on methods 
that keep our soil, water, and air quality as sustainable and healthy 
as possible. More specifically, we have focused on methods and 
techniques on water recharge, irrigation efficiency, energy 
conservation, energy production, and farm equipment with cleaner 
emissions. Our end-goal is to maintain our operation's long-term 
viability with adequate water, clean air and healthy soil.
    As a diversified farming operation, our techniques make certain 
that our soil never gets fatigued. This means that we plant a variety 
of different crops on our ranch that are designed to work together. We 
grow crops year round by replanting fields with crops that thrive in 
the coming seasons. This also helps stop soil erosion while keeping the 
ground fertile. Another advantage of diversified farming is that no 
single crop makes up more than \1/3\ of our income. This helps insulate 
our operation from poor production years, crop price reductions and 
disasters.
    The multitude of sustainable development principles, practices and 
technologies we implement on the ranch preserves our soil and allows it 
to be fertile, maintaining both plants and wildlife. These practices 
also encourage our biological systems to be productive, beneficial and 
diverse. Our practices include the following:

  <bullet> Water Recharge

      For over 25 years we have been working toward recharging the 
        underground aquifer below the ranch, our main source of 
        irrigation water. In 2011, floodwater was applied to farm 
        fields and documented by researchers at Bachand & Associates 
        and UC Davis. In 2012, the Kings River Conservation District 
        (KRCD) was granted $5 million from the California Department of 
        Water Resources along with $2 million in matching funds from 
        Terranova Ranch to build infrastructure in order to capture and 
        distribute floodwater to Terranova and nearby farmland for on-
        farm recharge. Sustainable Conservation and UC Davis have been 
        partners in this project. Work is progressing to implement this 
        project which, at full capacity, will be able to recharge up to 
        1,000 acre-feet of floodwater per day on 18,000 acres of 
        farmland. This project will be a perfect fit with the 
        sustainable groundwater management plan for our area and we 
        believe it showcases our commitment to long-term sustainability 
        goals for farming in the San Joaquin Valley.

  <bullet> Drip Irrigation

      In 2009, Terranova Ranch began irrigating with subsurface 
        irrigation on most of its annual crops. By making this change, 
        Terranova was able to reduce water usage by 30% while 
        increasing yields by 25%.

  <bullet> Energy

      Terranova Ranch started with a 1 megawatt solar facility on 10 
        acres of land. By 2016, the ranch brought an additional 1 
        megawatt facility online. With the completion of a these solar 
        projects, renewable energy provides \1/3\ of our electric needs 
        while reducing greenhouse gas emissions by 3,700 tons 
        CO<INF>2</INF> per year.
      We have also upgraded our sprinkler irrigation systems from 
        impact sprinkler heads to new water and energy saving plastic 
        sprinkler heads. The new sprinklers use less water by having 
        better uniformity and are more efficient. We are able to 
        conserve water and lower our energy usage, conserving resources 
        and the environment.
      We have also achieved greater sustainability through our pump 
        motors. The use of Variable Frequency Drives (VFD's) reduces 
        the amount of energy needed for the pumping of water. All pumps 
        equipped with VFD's require only the amount of energy needed 
        for the water volume desired. This is a much-needed improvement 
        from the old practice of running a pump at full power even when 
        unnecessary. In addition to these changes, we have also 
        converted from diesel to electric booster pumps at all wells 
        with VFD's.

  <bullet> Ecosystem Services

      The California Department of Food and Agriculture's (CDFA) 
        Science Advisory Panel defines ecosystem services in 
        agriculture as ``the multiple benefits we gain from farming and 
        ranching including crop and livestock production. In addition 
        to valuable open space and wildlife habitat, the management 
        decisions and conservation practices of farmers and ranchers 
        also enhance environmental quality, provide recreational 
        opportunities, and offer social benefits.''
      We support goals and methods of farming aimed at maintaining a 
        diverse habitat on the farm. Wildlife helps our farm by 
        providing necessary pest control and contributes to the 
        diversity of our environment. We have partnered with the 
        National Audubon Society to promote habitat for wildlife by 
        placing owl boxes throughout our fields. We also maintain 4 
        acres of wildlife refuge that is a home to egret and cormorant 
        rookeries, pond turtles, frogs, ducks, great blue herons, 
        hawks, short eared owls and other wildlife.
      We have also planted about 1 acre of milkweed on the farm to 
        support monarch butterflies that migrate through our area. In 
        addition, we are beginning a project to establish hedgerows of 
        native pollinator habitat on approximately 2 miles of levee on 
        the farm.

  <bullet> Air Quality

      We continue to strive to make many improvements to help keep our 
        air clean and reduce pollution. These improvements include the 
        conversion from natural gas motors to cleaner electric motors. 
        We are also enrolled in the San Joaquin Valley Air Pollution 
        Control District Incentives Program which has helped us replace 
        older Tier 1 and Tier 2 diesel engines on our tractors with 
        cleaner, more efficient Tier 4 engines. Today, almost all of 
        our equipment on the farm has been converted over to cleaner 
        Tier 4 diesel engines. We have also switched 13 All-Terrain 
        Vehicles from gasoline power to electric.
Considerations for the Subcommittee
    I was asked by the Subcommittee to focus my comments on precision 
agriculture as it relates to agricultural irrigation and water 
certainty. I wish to raise several items I feel are important for the 
Subcommittee to be aware of as you consider Federal policy relative to 
conservation and precision agriculture.

  <bullet> Precision agriculture provides optimal benefits when 
        executed at scales that recognize the limitations and 
        capabilities of tools to effectively manage a full array of 
        connected variables including, but not limited to, topography, 
        biological demands, agronomics, and natural environment 
        conditions. Therefore, it is essential that farms have the 
        opportunity and flexibility to try new ways of farming that 
        might improve conservation.

      For example, on our farm, we have had success simply trying out 
        new approaches in order to conserve water, improve air quality, 
        and reduce energy consumption. We research a new opportunity, 
        trial a new practice for a determined amount of time, test 
        things on small plots in a controlled manner in order to 
        measure the results. If proven successful, we are able to ramp 
        up production on a larger test plot and ultimately adopt the 
        practice across the farm. While we have had great success in 
        some areas, we have not had success in all areas. The adoption 
        process can also be extremely costly and time consuming. 
        Additionally, practices that work for our operation do not 
        necessarily work for a neighboring operation or another farming 
        region.

  <bullet> California's farmers and ranchers are at the ready to adopt 
        new technology and precision agricultural practices, but it is 
        critical that these technologies and practices are readily 
        available, scientifically trialed and affordable for the 
        operation and crops being grown. In the area of irrigation, the 
        most common irrigation methods used in California are gravity 
        (furrow or flood) irrigation, sprinkler irrigation and drip 
        irrigation. Farmers choose their method of irrigation based on 
        a series of factors including, but not limited to, soil type, 
        topography, and the crop.

      California agriculture has experienced a great level of adoption 
        of pressurized irrigation systems such as surface drip 
        irrigation or sprinklers. These pressurized irrigation systems 
        generally apply water at a slow and accurate rate providing the 
        farmer an immense amount of control. However, these systems are 
        much more costly to install and operate than furrow irrigation 
        techniques and may not be economically feasible for every crop 
        or operation. Additionally, such technologies and systems may 
        rely on a skill sets not readily available and additional 
        investments in training or certifications must be made.
      Regardless of irrigation method, all irrigation systems have the 
        potential to be operated inefficiently. For that reason, a 
        producer focusing on an irrigation management plan that is 
        efficiently operated, rather than irrigation method, is most 
        important.

  <bullet> Scientific irrigation scheduling is an important component 
        in California's modern farming operations. To prevent this, 
        farmers use a variety of tools to help them determine when to 
        irrigate including, but not limited to, the weather, soil 
        moisture, and the plant's stress level. In California, farmers 
        have the ability to utilize the California Irrigation 
        Management Information System (CIMIS), a network of more than 
        145 automated stations across the state that gather weather 
        data. Managed by the California Department of Water Resources, 
        this system assists farmers with gauging the amount of water 
        their crops need.

  <bullet> It is essential that there is an understanding of the 
        difference between ``water conservation'' and ``water use 
        efficiency''. These terms are often used interchangeably but to 
        agricultural water users they are very different things.

    <ctr-circle> Water conservation is generally perceived as an 
            activity that reduces the amount of water used to do 
            something, such as wash a load of clothes or take a shower. 
            High efficiency washing machines and low-flow showerheads 
            conserve water that can then be used by another user or at 
            a later time.

    <ctr-circle> Water use efficiency is when a water user does things 
            to achieve more using the same (or less) water. For 
            example, a farmer who changes their irrigation system so 
            that water is more efficiently used by the crop, producing 
            more saleable, higher quality crop on roughly the same 
            amount of water. The efficiency is what is gained in crop 
            production.

  <bullet> While there are many advantages to implementing precision 
        agriculture via efficient irrigation practices, we must also be 
        cognizant of trade-offs and unintended consequences that can 
        exist with resource decision-making. Water and energy are 
        tightly linked. Installation and use of industrial pumps and 
        motors, on-demand pressurized drip lines, tailwater recovery 
        and recirculation of water for reuse can result in increased 
        energy demand. Additionally, some producers could experience a 
        time-shift on when energy demands occur. For example, soil 
        moisture and plant stress monitoring can shift energy use to 
        daylight/peak-time demand away from off-peak.

      It is common knowledge that California continues to experience 
        water uncertainty. Therefore, California's farmers and ranchers 
        must be careful stewards of the water utilized to produce food 
        and fiber. Though precision agricultural practices have 
        assisted agricultural producers with reducing their consumptive 
        water use, the unintended consequence has been less water 
        returning to the system. In some areas, this has resulted in 
        dramatic impacts to underlying groundwater supplies, which do 
        not receive adequate recharge resulting in overdraft and 
        subsidence.
      This is highly relevant in the context of California's 
        Sustainability Groundwater Management Act, which is expected in 
        coming years to dramatically reduce the amount of groundwater 
        that can be relied upon for irrigation in time of drought or 
        reduced surface water deliveries. This will place a premium on 
        efficient use and management of available water through means 
        including new and existing technologies. At the same time, it 
        will require expanded recharge and capture of excess flows in 
        times of abundance. A complete solution, therefore, requires 
        both improved management of both demand and supply sides of the 
        equation.
Recommendations for the Subcommittee
    In light of the considerations offered above, I offer the following 
recommendations to the Subcommittee for consideration:

  <bullet> Continued Investment in Voluntary Cost-Share Programs for 
        Producers

      We are very appreciative of the many improvements that were made 
        by this Committee in the conservation title of the last farm 
        bill. Of the conservation title programs, the Environmental 
        Quality Incentives Program (EQIP) is by far the most utilized 
        program in California assisting producers in achieving greater 
        conservation goals. We particularly thank you for including 
        funding for air quality incentives, which has been incredibly 
        important to farmers in California who face strict air 
        standards. EQIP has assisted farmers in making great strides in 
        the areas of air quality and water conservation and we believe 
        there is more to come.

  <bullet> Continued Investment in Technical Assistance

      Financial resources for Natural Resources Conservation Service 
        technical assistance staff at levels commensurate to the 
        voluntary financial assistance are essential for assisting 
        producer adoption.

  <bullet> Flexibility

      It is important to recognize that there is no one-size-fits-all 
        approach for precision agriculture practices. In California 
        alone, there are over 400 commodities grown. Each field, crop 
        and operation will have different conservation and economic 
        needs to factor in and we need to realize that, in some 
        circumstances, the practices that have been promoted and 
        validated in one field might not make sense for the next. We 
        must be cautious in making value judgments and use our 
        motivation and resources to identify the proper mix of new or 
        alternative practices or technologies that work in each unique 
        circumstance.

  <bullet> Limited Control

      Farmers have only so much control. California's farmers and 
        ranchers continue to farm amidst great uncertainty when it 
        comes to reliable water supplies. Despite recent improved water 
        conditions, periodic drought is a fact of life in California. 
        The severe 2012-2015 drought followed by the wet years since 
        has illustrated what both extended drought and extreme rainfall 
        cycles look like with inadequate water infrastructure. If 
        longer and drier droughts coupled with powerful floods are the 
        future of California's possible larger climate trend, it means 
        we must do a better job of investing in water infrastructure 
        and capturing water resources when they are available. This in 
        itself is a way of maximizing efficient use of limited water 
        resources across different year types.

  <bullet> Federal Investment/Innovative Finance Tools

      Water infrastructure investments should be made more attractive 
        and affordable for non-Federal interests. For that reason, Farm 
        Bureau has been supportive of expanding Federal financing 
        mechanisms. We believe the combination of Federal funding and 
        common sense financial tools, such as the creation of the 
        Reclamation Infrastructure Finance and Innovation Act (RIFIA) 
        loan program, would greatly aid western water managers with the 
        construction, rehabilitation and improvement of surface and 
        groundwater storage projects, conveyance, as well as water 
        recycling and desalination projects. The Natural Resources 
        Conservation Service Regional Conservation Partnership Program 
        (RCPP) is also an excellent program.

  <bullet> Broadband

      A critical component to implementation of precision agricultural 
        technologies is access to broadband. Despite our apparent 
        proximity to Silicon Valley, there are many areas, myself 
        included, of rural California that do not have sufficient 
        access. Many rural areas either lack the initial infrastructure 
        or have fallen behind in terms of speed and availability. It is 
        critical that investments are made and unfortunately, in our 
        experience, many providers are skewing their data, which 
        creates inaccurate maps of dead zones.
      Technology can provide many benefits and increase efficiency in 
        agriculture--but only if its available to agricultural regions 
        and our rural communities. We recommend that Congress work with 
        the U.S. Department of Agriculture and the Federal 
        Communications Commission to fund programs to solve these 
        critical rural broadband problems. Access to broadband will 
        help ensure availability of on-demand regional, statewide, and 
        national weather resources that are foundational for irrigation 
        scheduling & other on-farm decision-making.
Conclusion
    California's farmers and ranchers are water stewards, using water 
to grow the crops that feed and clothe us. California's 77,500 farms 
and ranches produce 50 percent of the nation's fruits, nuts and 
vegetables; twenty percent of the milk; and more than 400 different 
agricultural commodities. California's farmers have long been early 
adopters of new and innovative technologies that can help produce food 
and fiber more efficiently and that tradition continues today.
    Farm Bureau appreciates the time and attention that this 
Subcommittee has given to this important topic today and I am happy to 
answer any questions. Thank you for the opportunity to testify.

    The Chair. Thank you very much to the witnesses for their 
initial testimony. Members will be recognized for questioning 
in order of seniority for Members who were here at the start of 
the hearing. After that, Members will be recognized in order of 
arrival.
    I will first recognize myself for 5 minutes, and I would 
like to begin by thanking Mr. Madison for making reference to 
the conservation efforts that have been vital across the 
Commonwealth of Virginia in restoring the Chesapeake Bay, and 
the important role that farmers and producers have played in 
that ongoing work that we are doing, just next door, in 
Virginia.
    Mr. Cameron, you mentioned broadband internet, and that 
farmers can reap the benefit of a full range of options 
afforded by precision agriculture, and that without 
connectivity through rural broadband, there are hindrances. 
Even in areas with broadband access, the internet connection 
speed is not always fast enough or predictable enough to 
support precision agriculture technology. Can you speak to the 
importance of high-speed internet in maximizing conservation 
efforts, and as we here in Congress considering policy 
approaches that help expand broadband access and enable the 
uptake of precision ag tools, is there anything in particular 
that you think we should keep in mind?
    Mr. Cameron. Thank you, Madam Chair.
    Broadband is a near and dear problem that I take very 
seriously. On our farm, we are probably 100 miles away from the 
Silicon Valley. We are lucky to get 4 megabits up and down on 
our farm, which on most days, is somewhere around 2. It is like 
a dial-up service it is so bad. We have poor telephone 
connection with cellular within our operation. But with 
broadband, we can interconnect our whole farm. We can monitor 
wells. We can monitor flow rates. We can turn on and off wells, 
irrigation systems, from our phone. But without the access, not 
only do we suffer as a business and are at a disadvantage, but 
also our rural communities that have children that are moving 
on to college can't even fill out a college application online, 
because of the poor broadband service.
    I just feel that this is extremely important for precision 
agriculture. We need to be connected and somehow, the rural 
economy has been left out of the picture. When I hear of 1 
gigabyte in some cities in California, I just can't believe 
that we can't do better.
    The Chair. Thank you very much.
    Mr. Madison, in your work as a farmer, consultant, and a 
member of multiple advisory committees, which Federal programs 
that aim to facilitate the adoption of precision agriculture 
tools do you see as particularly relevant in central Virginia, 
and how could these programs be improved, in your opinion? And 
I also welcome you to comment on the question I posed to Mr. 
Cameron related to broadband, and how lack of accessibility, 
lack of access in Louisa County impacts your day to day work?
    Mr. Madison. Thanks.
    I am going to start with the broadband. I am looking at it 
a little bit differently and say that a lot of what we use 
internet access for in precision ag on our farm is the work 
that happens after the season and before the season. That is 
where all the planning comes into play that makes the precision 
ag piece work in the field. That is a lot of internet usage. I 
can't take my laptop and sit in McDonald's all day to find WiFi 
to do this kind of stuff. Our business depends on it, so it is 
very important that we have a way to use the tools that we 
invest money in, that we take the time to learn, and get the 
most out of what we are doing.
    To the conservation programs, precision programs, EQIP has 
always been really good to us. It fills a lot of needs. It 
covers a lot of ground if you have the whole EQIP playbook to 
work with. Sometimes, at least in my experience in Virginia, we 
don't always have that whole playbook to work with. I guess on 
the downside of that is when it comes to some of the CAT plans 
for nutrient management, the technical service provider stuff, 
that is promoted from NRCS. Well, at the Federal level, it 
doesn't really get promoted at the state level. I have been a 
TSP for either 4 or 5 years. NRCS personnel has directed me to 
write three plans. That is not a lot. There is a lot of opening 
for it. The plans that I have written, everybody was really 
into it. They were glad they were getting something, because if 
they didn't have that, they would have gone back to old style 
practices, throw a bunch of fertilizer out there, see what 
happens.
    We have really good programs. We just need a little bit 
more follow through on them at the state level.
    The Chair. Thank you very much.
    I now recognize Ranking Member LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you again.
    Mr. Cameron, let's just get to the nuts and bolts of this. 
How is conservation associated with or helped with, as we see 
farm income struggling, and the condition of agriculture in 
this country is pretty rough. How has conservation helped with 
your bottom line, going forward?
    Mr. Cameron. I know that when we adopted subsurface drip 
irrigation on our farm with precise application of nutrients, 
insecticides, and water, that we actually found our water use 
decrease by 30 percent, and that our yield increased by 25 
percent on processing tomatoes. We did a 1 year trial in 2009, 
and then in 2010 we converted every acre we had of tomatoes and 
started with some of the other crops to subsurface drip 
irrigation. Yes, we had an immediate benefit from that. We were 
ahead of the curve, so we were able to capture better income 
for quite a few years before the rest of the industry caught up 
with what we had done. That allowed us to purchase new 
equipment with cleaner engines. It was almost like a snowball 
effect. Once we got started down that track, it gave us 
additional income that we could spend to improve other 
operations of the farm.
    We found that some of these precision techniques have been 
really beneficial to us over the years.
    Mr. LaMalfa. Thank you.
    Mr. Madison, do you care to add to that?
    Mr. Madison. I would say the same thing in a lot of 
regards, especially in there were some initial advantages to 
going down some conservation routes. But over time, they get 
amplified. No-till gets better as you stick with it. Cover 
crops in a field get better as you stick with it. More targeted 
fertilizer application typically saves you money more each year 
you do it. There is a lot of opportunity for that to build on 
itself. I would say it is a really big deal in what we do.
    Mr. LaMalfa. Thank you.
    I note that on the fertilizer application, if you can 
tailor it to what the need is, you get uniformity of yield or 
you get closer to that, which helps with ripening and timing on 
harvest.
    For both of you here, do you feel that the current 
voluntary conservation programs are adaptable at this point to 
your conservation needs these days? Are they as adaptable as 
you need, or do we need to do more work?
    Mr. Cameron. The programs that--a lot of the conservation 
programs, those Conservation Reserve Programs really haven't 
been that effective in California and the typical agriculture 
production areas, because we tend to farm every square inch 
that we have. We just feel that that is the way we need to be 
to be profitable. We have taken a slightly different approach 
to that lately, and are dedicating part of our farm to 
different pollinator habitats. We have a monarch project where 
we put in milkweed with Environmental Defense Fund. We have 
made partnerships with sustainable conservation, UC Davis, some 
of the universities to do some additional precision work on the 
farm.
    But, like I said, we think EQIP is great. We think the RCPP 
Program is excellent for a larger area, bringing farmers 
together for one goal. We think it is a very effective way to 
bring new infrastructure on farm and onto the region.
    Mr. LaMalfa. Mr. Madison, do you agree or how does that 
look for you?
    Mr. Madison. Yes, definitely. Voluntary conservation 
efforts, even if they may be incentivized from EQIP or RCPP or 
any other thing that we can find, they are all beneficial. You 
don't have to twist people's arm too much to get them to go 
down that route of some conservation practices. Once they see a 
year or 2 down the road that they did realize an advantage.
    Mr. LaMalfa. I agree. Okay.
    I yield back, Madam Chair. Thank you.
    The Chair. Thank you.
    I now recognize the gentleman from Arizona, for 5 minutes.
    Mr. O'Halleran. Madam Chair, thank you for scheduling this 
hearing on the important conservation benefits of using 
precision agriculture.
    The University of Arizona operates the Maricopa Agriculture 
Center in my district in partnership with the USDA. The MAC is 
dedicated to developing and delivering the best integrated 
agriculture technologies for problems faced by Arizona 
consumers and producers.
    One example of their work includes using drones equipped 
with special imaging sensors to monitor crop development. This 
technology provides researchers with more precision information 
on the crops condition.
    I have scratched out a lot of my statement here because 
what I have heard is--I am concerned with what I have heard 
today. It is like rural Arizona has been--America has been 
forgotten in the technology and knowledge-based economy. My 
district is the size of Illinois. I go around my district and 
50 percent of the time not only can't I connect to the 
internet; I don't have cell coverage at all. And that is a 
problem in the West especially. You go down in a valley 
somewhere, even if you are close to town, you are missing it. I 
heard Mr. Madison easily describe getting to a McDonald's, and 
many of the towns in my area, McDonald's is the after-school 
program to get on to the internet.
    I don't understand a country that was able to get telephone 
to every bit of this country is in this situation today, and if 
we expect the people of rural America to do what we need them 
to do and keep them there and allow them to have a quality of 
life, then we have to do something much better than we are.
    Now, urban America, with all this high speed and 
everything, they get their water from rural America, their food 
from rural America, their energy from rural America. The whole 
concept of transportation, that is where their--in many cases, 
their vacation home is at. That is where they go on tourism. 
And we have to have people out there. They don't need to be 
moving into cities. And yet, we have our young people, after 
they get out of college hopefully, if they are able to get 
there because of lack of educational opportunity, we have them 
going to cities in order to find jobs and leaving farming and 
the agriculture industry.
    Our country can't afford to go down this path any further, 
and I am glad we had this hearing today, but it has to--we have 
to start to acknowledge as a body that we just aren't going in 
the direction we need to be going.
    I struggle. I go to the research center twice a year, and 
find that all this stuff that they are doing is for naught. 
People just aren't able to use it if you are further away from 
a city or town. And there is--I see no real program here in 
Congress that has adapted to the realization of this. They are 
under-funded programs, whether they are the USDA or out of any 
other Committee here. They are not coordinated. We have to have 
numerous people out there being told when we know people want 
it and need it that it is just too costly to get out there. And 
with 5G coming along, people are going to be--demand even 
higher speeds. Tremendous amounts of money are going to be put 
into this. And so, if there is a gap between rural America and 
urban America, that gap is only going to increase. And that is 
something that I just don't want for the children of rural 
America. I don't want it for the--our rural communities, our 
agriculture communities.
    And so, I am not going to ask any questions. I am going to 
yield back and thank the panelists for being here today.
    The Chair. I thank the gentleman from Arizona for 
expressing a frustration that I think is shared from any of us 
who represent rural communities throughout the country.
    I now recognize Ranking Member Conaway, for 5 minutes.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. I thank the Chair.
    Dr. Karsten, the land-grant schools are the best way that 
we communicate research and other things to actual producers. 
Can you talk to us about the kinds of resources the land-grant 
schools provide for our producers in translating all this 
technology and precision agriculture into actual operations on 
their farms and ranches? What role are you all playing in that 
regard?
    Dr. Karsten. Yes. I think that the first opportunity or 
what we do is to train students, to teach students, and we have 
graduates who, as soon as they are finished with their degrees, 
they are hired to work in this area of conservation and 
precision agriculture. And so, that is an important role that 
land-grants provide in preparing people for the workforce. And 
there are lots of opportunities to do more of that. There are 
some online education types of programs that broadband would be 
needed for, but that can reach a broader audience.
    In terms of research, we are producing free online decision 
support tools and access to data that is gathered through, for 
instance, remote sensing or satellite imagery. If a farmer 
can't afford the sensors to create a yield map to put on their 
combine, there are tools in the satellite vegetation index that 
we can use to create these yield maps to help them do more 
precision management and identify opportunities to increase 
their profitability and optimize conservation.
    Mr. Conaway. I guess that was the question. You have those 
tools; you have those resources. How do you get that 
communicated to the producers out there? Through extension? How 
does that producer know, or do any producers know that that is 
available for their region?
    Dr. Karsten. Right. The partnership with extension and 
researchers and with extension and other educators like the 
NRCS and consultants, crop consultants, nutrition consultants, 
is key. And there are more opportunities and quite honestly, I 
think the need for more funding to extend those activities and 
expand those activities to reach more growers and more 
practitioners or consultants with these tools. Some of these 
tools were still identifying how to optimize the interface, the 
user-friendly access, and that kind of dialogue between the 
users, the educators, researchers, is key. There are 
opportunities for on farm research for extension to help 
farmers evaluate these technologies, and then to facilitate 
peer-to-peer learning. We know that farmers are more 
comfortable adopting something if it has been successful for 
their community and their neighbors, and often support just to 
help bring farmers to different educational events can be very 
impactful.
    And just helping them--I mean, I have had--I have talked to 
colleagues who say someone invested a lot of money in this 
technology and then they couldn't use it because they couldn't 
figure out how to download the right software and sync it to 
their database computer and their monitors, their combines, 
their planters. And that kind of technical assistance--which we 
need to teach our students to do, but also help our educators, 
our extension providers provide that is critical.
    Mr. Conaway. Thank you.
    Mr. Cameron, you used a phrase that I was not familiar 
with, ``pressurized irrigation systems.'' Would you explain to 
me what that is? And you also said, ``pressurized drip.'' Is 
that the same thing?
    Mr. Cameron. Typically it is the same thing, because when 
you do drip irrigation, you do need to pressurize your system. 
It could be low pressure. It may only be 10 or 12 pounds per 
square inch, and we also use precision highly efficient 
sprinklers for some of the crops that we grow, carrots and 
onions, that require sprinkler application.
    Yes, when we pressurize, it takes energy to run those 
booster pumps to drive the system.
    Mr. Conaway. The sprinklers, you need pressure more than 
just the normal load from your source?
    Mr. Cameron. Right, right, because we pump almost all of 
our water from the groundwater.
    Mr. Conaway. Okay.
    Mr. Cameron. We bring it up and then we have to add another 
pump to take it up for sprinklers up to 60 pounds per square 
inch.
    Mr. Conaway. I got you. Thank you.
    Mr. Cameron. Sure.
    Mr. Conaway. Thank you very much, Madam Chair. I will be 
remiss if not referring our folks to the 2018 Farm Bill that 
did have extensive broadband activities in there. It requires 
coordination between FCC and USDA on the ways that they are 
trying to get at this, but I concur with my colleagues that 
without it, we are going to keep rural America behind the curve 
on that. But we have taken a look at it.
    I yield back.
    The Chair. Thank you.
    I now recognize the gentlewoman from Maine, for 5 minutes.
    Ms. Pingree. Thank you very much, Madam Chair. Thank you 
for holding this hearing, and to all the witnesses for being 
here today.
    Just so Maine isn't left out, I want to make sure that I 
concur with all my colleagues on the challenges of broadband. 
We are the most rural state in the nation. We are always in the 
bottom ten percent of connection and speed, so we feel everyone 
else's pain. And while I have been a part of working on things 
like the farm bill and more appropriations, there are some 
structural issues that continue to keep rural America from 
being connected. And some of it just has to do with our system 
of providers who just don't want to go that last mile--
sometimes it is the last 20 miles--to get out there. We have to 
take a much more serious look at this. But thank you for what 
you are talking about.
    In my state, for the most part we have a lot more small to 
medium size farmers, and some of what you are talking about 
requires a big investment. Can you talk a little bit about 
which of these applications you think apply or are useful, or 
could be converted for use for small to medium sized farmers? 
And also, I guess you have talked a little bit about it, but 
just the continuing need for technical assistance. Farmers 
can't all be data managers and operate all this equipment. I 
think you are talking a little bit about that, and I know some 
of you are even playing that role.
    But anyway, just a little bit more about is there value for 
other farmers?
    Dr. Karsten. Was that----
    Ms. Pingree. Anybody.
    Dr. Karsten. I would offer that we know that we can help 
farmers have access to yield maps to better site specific 
manage subzones or subfields without necessarily having only 
the yield monitor maps. And that is an example of how there are 
opportunities for farmers of all different sizes to then fine 
tune their management and make sure what they use in that 
location is profitable and that it is going to be profitable in 
the long-term.
    If they can adopt more diverse rotations and conservation 
practices like reduced tillage and continuous cover, they can 
retain more nutrients on their farm. They can interrupt pest 
life cycles, provide habitat for beneficials, and there are 
multiple benefits that come with these conservation practices, 
like soil health and resilience to stress.
    I will defer to others.
    Ms. Pingree. Well, let me throw in another question, unless 
one of you is about to--were you about to answer that?
    Mr. Cameron. I wanted to just mention one other thing on 
broadband.
    We were approached by a large company for bringing 
broadband in. Since nobody ever comes to us and tells us they 
are going to do that, so of course, we said, ``Sure, let's do 
it.'' They came back to us and told us that it would be 
$850,000 to bring 20 down dedicated to our operation.
    So of course, we didn't do it.
    Ms. Pingree. Yes. I mean, we hear a lot of stories about 
that, $10,000, $20,000, $50,000 to get it to a rural community.
    Mr. Cameron. Unbelievable.
    Ms. Pingree. Yes, and $850,000 is sort of off the charts.
    Mr. Cameron. Yes, I was just going to echo your--the 
technical assistance providers are critical to get this 
information out to the growers, to their level on farm 
projects, anything they can do to help the growers adapt is 
beneficial. I think it is an integral part of the NRCS program.
    Dr. Karsten. I would add that, in Pennsylvania, we have a 
lot people who don't use the internet, Amish and other 
cultures. And so, we know that we need to produce hard copy 
educational materials and do field events and conferences in 
the communities, work with growers through extension educators. 
And that is also really face to face, on the farm, really site-
specific kinds of work that extension can--does and can do more 
of, and we have tools that you don't need a computer 
necessarily. You can use pen and paper.
    An example would be one of my colleagues who is helping 
farmers better manage their nitrogen by crediting the fact that 
they have built soil organic matter and that they have cover 
crops in the system that are retaining and supplying nitrogen 
to the crops, so that they don't have to buy an input to supply 
that nitrogen. There are other tools like that. Yes, they are 
online, but they also are in the forms that we can use in the 
field. And that is the important opportunity with extension.
    Ms. Pingree. That is great. I am about to run out of time, 
but thank you so much for your testimony and the work that you 
are doing out there. Thanks.
    The Chair. I now recognize Mr. Allen from Georgia, for 5 
minutes.
    Mr. Allen. Thank you, Madam Chair, and I want to thank the 
panel for being here today, and commenting on this amazing 
technology that is driving the largest industry in my state, 
agriculture, and the largest industry in my district.
    Dr. Karsten, as you know, we have the University of Georgia 
there in the state. It is a land-grant institution, and their 
researchers are committed to helping farmers maximize crop 
yields while minimizing their resource usage. And precision 
agriculture plays a key role in that.
    Can you provide a brief overview of what type of resources 
land-grant universities like Penn State and the University of 
Georgia can provide for our farmers when training them to adopt 
these practices on the farms? In other words, how do we get it 
from the research to the farmers, and how do we do that with 
the bottom line that they are working with right now?
    Dr. Karsten. Well, some of the extension activities that we 
do with farmers on their farms to help them evaluate 
technologies, but also to adopt these new decision support 
tools or these technologies are critical. Often they need 
assistance, both in terms of the technology, but also in 
interpreting what the recommendations are from, say, a decision 
support tool and technical assistance.
    We see a lot of our graduates are the people who go out and 
provide that technical assistance, and it is not only through 
extension--although that is a very critical role--but because 
they go to work in the workforce and other agencies. And that 
partnership that land-grants provide to work with input 
providers or the folks developing some of this technology can 
keep the communication about well, how do we make this 
available and accessible? And how do we make this a tool that 
they could use online or that they could use on their phone? 
There are lots of apps, for instance, that we are producing so 
that a farmer on their phone can integrate what is the cost of 
this feed or this input, and what are the potential ways they 
could save money and increase their long-term productivity.
    Mr. Allen. That is what technology is all about, which kind 
of brings me to my next question.
    Each of you have talked about the barriers to adopting this 
precision agriculture in your testimony, and what steps can 
this body, United States Congress, do to help reduce these 
barriers? For example, obviously we have talked about how it 
sounds like your biggest challenge is cell phone service and 
broadband, and the costs associated with delivering that 
service to deliver precision ag. Is that what I am hearing? 
Would Mr. Cameron and Mr. Madison care to comment on that?
    Mr. Cameron. Yes. We know that when we--we do aerial photos 
every week of our crops during the season when they are 
growing, and if it takes us 2 minutes to download a photo of 
one field, our time is precious. I mean, we have a lot of 
things going on at the same time, and it makes it difficult to 
do the work that we need and to bring the technology onboard so 
that we can affect change in the field with either nutrient 
levels, water delivery. It is a big stumbling block for us. And 
I don't mean to belabor it, but it is a serious issue in the 
rural community because we get bombarded with tech companies 
from Silicon Valley that want to cure problems we don't even 
have, but we do--we just have seen a lot of projects come our 
way and we tend to be the one that filters them out, whether 
the ones that sound promising we try. Others, we show them the 
door. But there is a lot of technology that is coming into 
agriculture.
    But, yes, we need a different caliber of employee coming on 
farm that knows how to handle and implement technology that is 
available.
    Mr. Allen. That is why it is important to support our young 
farmers.
    Mr. Cameron. Exactly. I agree.
    Mr. Allen. I yield back. I am out of time. Sorry, Mr. 
Madison, you can comment on that next time you are asked a 
question.
    The Chair. Thank you, Mr. Allen.
    I now recognize the gentlewoman from Iowa, for 5 minutes.
    Mrs. Axne. Thank you, Madam Chair and Ranking Member, and 
thank you for holding this very important hearing, and thank 
you so much to our witnesses for being here today. I am very 
grateful to have you here.
    I won't belabor the point of broadband, even though that is 
one of my questions, but I would encourage all of you to 
continue to promote it. I am on the Whip's Rural Broadband 
Taskforce. We know how important this is, and by gosh, we are 
determined to make sure that this gets out to rural America on 
so many levels, from precision agriculture to keeping people 
healthy. Please, the more voices we have in this, absolutely 
the better. We would love to hear it.
    I want to just go back to another topic related to some of 
the natural disasters that we are facing and the impact on 
agriculture.
    We all know that farmers have always been on the cutting 
edge of technology in utilizing new advances to increase 
efficiency and yields, while using less inputs. Over the last 
few decades, we have seen a heck of a lot of movement in this. 
We have seen farms integrate satellite technology to better 
manage their acres and to make smarter decisions with better 
information. And since 1960, the average yield per acre of seed 
corn has more than tripled, largely due to improved technology 
and adoption of precision ag, which has led to significant 
benefits for conservation by reducing inputs, leading to less 
waste and more efficient use of energy.
    The benefits of precision agriculture are clear, and I am 
glad we are here today to discuss that and what we can continue 
to do further when it comes to resiliency.
    If you haven't seen the news lately, farmers in my district 
have had a real tough year. I am from Iowa's third district, 
with issues of low commodity prices being exacerbated by a 
trade war, and of course, a biofuels program that is being 
undermined. And on top of this, we have had record amounts of 
water, and then some of the worst flooding we have seen in my 
district, it has literally been the most historic flooding. We 
are in bad straits there.
    The flooding has devastated communities around the Missouri 
River, and resulted in over 100,000 farm acres being flooded 
and billions of dollars of damage. And while of course flood 
prevention is our number one priority and making these folks 
whole and making sure that we cover things like uninsured grain 
bins, we must also be prepared for recovery and work to improve 
resiliency.
    Dr. Karsten, I am wondering, farmers in my district and 
across the Midwest have seen changing rainfall patterns in 
recent years, and as farmers adjust to unpredictable weather 
and changes in precipitation, how can precision agriculture 
technology help our farms grow more resilient against these 
issues?
    Dr. Karsten. Yes. I think that the example of using the 
landscape variability to identify regions that are most 
vulnerable to extreme weather events, that have shallow soils, 
low organic matter, et cetera, and have not yielded profitably 
consistently over time is an excellent example of how those 
regions can be managed specifically for best long-term 
productivity and profitability. And so, that might mean that a 
farmer can identify a zone that is in a flood plain or that is 
very shallow and on a steep slope that would be better served 
than the typical annual crop rotation that they have by 
planting perennials that once they are planted, they are 
established for many, many years. And they can retain water and 
nutrients; but, with those deep root systems and maintain 
productivity either for forages or biofuel, energy crops, or 
bedding, and still produce a profitable product in a region 
that they would have actually been losing money and would have 
frequently experienced the impacts of these extreme weather 
events.
    That kind of site-specific opportunity is prime, and there 
are lots of examples of research in Iowa that have identified 
these zones that are losing money, very significant losses that 
can be overcome with site-specific management and things like 
perennials or conservation practices that build soil health and 
increase water infiltration and resistance to or resilience to 
stress.
    I want to defer.
    Mr. Cameron. When I look at resiliency in agriculture, we 
look at healthy soils. We know that we can build increased 
organic matter, sequester carbon, ways that we can hold water 
longer, which you may not have wanted this year. But in 
California, we went through a 5 year drought and believe me, 
every drop of water we want to hold either above ground or 
below ground for use at a later time.
    But, with better soil health, I think you can control your 
nutrients. They are not going to be leeching. There are just 
great ways that you can increase production. We are looking at 
in California at a program of incorporating a whole almond 
orchard at the end of its life, chipping it, and putting all of 
that biomass back into the ground so that carbon will be 
sequestered and you will have additional organic matter long-
term. We are working in California the same as you do at the 
Federal level to improve soil health.
    Mrs. Axne. Thank you. We would trade water with you any day 
if we could.
    Mr. Cameron. We would love it.
    The Chair. Thank you, Mrs. Axne.
    The Chair now recognizes the gentlewoman from Washington 
State, for 5 minutes.
    Ms. Schrier. Thank you, Madam Chair, and thank you for 
letting me crash your Subcommittee twice in about a week here. 
I want to thank you all for being here.
    Mr. Madison, you raised a really interesting topic that I 
hope you can expand on. It is the use of the TSPs, the 
technical service providers to support NRCS staff in the field. 
One of the things that I routinely hear from my farmers who are 
trying to do the right thing with resilience farming and 
healthy soil and drill seeding machines is that they need 
additional technical assistance to help them enroll in 
conservation programs and then do the work.
    I was wondering if you could speak about your experience 
and what technical service providers can offer farmers?
    Mr. Madison. A TSP is basically a privatized NRCS employee. 
We can write the conservation plans. We can inspect them. We 
can kind of offer advice, do a lot of that face to face thing 
with a grower that the NRCS staff does, but we are not full-
time employees. So, that is supposed to be the best of both 
worlds.
    Part of what makes that a successful kind of program, as 
long as it is promoted to growers, is that a customer farmer to 
NRCS can work through some of this stuff without having to go 
to the government to get help. They are still going through 
that process, but inherently, farmers, at some point, don't 
want to go sit in a government office to work through 
conservation issues. That is just the way it is. If they can go 
to another grower or a private individual and work through some 
of that, they tend to be a little more open. It is a little bit 
easier process to get through. And it is a cumbersome process 
no matter how you go about it. Anything you can do to make it 
easier is going to really increase the chance that it is 
successful at the end of the project.
    Ms. Schrier. I understand that about the government 
offices. What kind of training did you go through? Was it all 
kind of in your own experience training? How did you learn and 
then leverage to help your colleagues?
    Mr. Madison. It is basically your past experience. I had to 
provide references from growers who I have worked with in the 
past, work experience. At the time, I had several years working 
in retail selling fertilizer, selling seed. I had a certified 
crop advisor certification, that helped, and a certified 
nutrient management planner in Virginia. All those things kind 
of go in there together, and somebody reviews it somewhere on 
the other side of that computer screen and tells you if it is 
enough. And in my case, it was enough.
    Ms. Schrier. That is great. Thank you.
    I was also struck by your testimony of working in the 
fields all day long until 9:00 or 10:00 at night tilling, and 
then if it rained the next day, you lost all of that rich 
topsoil. And then so I was listening to you, Mr. Cameron, talk 
about soil health and not tilling. I have a really interesting 
picture posted in my office of two farms on different sides of 
a street, one farmed with no-till and the other conventional, 
and after a flood, the conventional farm is far underwater and 
the other one has absorbed that moisture. It holds it in 
periods of drought and rain.
    But you are by the Chesapeake Bay and you wanted to avoid 
runoff there. I am by the Columbia River and Puget Sound. I was 
just wondering if you could comment on some of the things that 
you have found have helped protecting your natural waters?
    Mr. Madison. The basics were a really good start. When I 
say the basics, I mean nutrient management, cover crops, and 
no-till. In Virginia, they are starting to sound old. Everybody 
already does that stuff. Nobody wants to talk about it anymore. 
But I know in other parts of the country, that is not the case. 
And the reason it sounds old in Virginia is because we all do 
it because we have all kind of figured out that it works. And 
there is nothing better than using other farmers as examples. 
We are all pack animals. If we see somebody else do something, 
we want to go do it, too, or at least try it.
    Ms. Schrier. And in my last 16 seconds, do you have any 
ideas about how to get that to the rest of the country? Because 
I do think farmers listen to farmers more than they will listen 
to me.
    Mr. Madison. In Virginia, it was not a very fast process. 
You had to just keep hammering away on that point. Now we have, 
through precision ag, we can do case studies a lot better. We 
can actually put numbers to things. In the past, it was kind of 
do this, it will work. I promise. Now, we can break it out and 
I can cover you with spreadsheets and layers of data that prove 
to you that it worked over a few years. That is going to be 
important as we go forward with farmers needing to make it on 
their margins. They will follow the money.
    Ms. Schrier. Thank you very much, and thank you for what 
you have done.
    The Chair. I thank the gentlewoman from Washington State 
for talking so much about Virginia.
    With the first round of questions completed and without 
objection, we will begin a second round of questions. Members 
who wish to be recognized will be recognized for 5 minutes in 
order of seniority, and I will now recognize myself for 5 
minutes.
    Mr. Cameron, we touched upon an interesting topic when you 
mentioned very briefly the almond groves. Precision agriculture 
technologies do vary significantly by commodity type, and 
unlike row crops, not all specialty crops are planted annually. 
And additionally, specialty crops tend to have unique planting, 
harvesting, packaging processes and production operations.
    What role have you seen or what role can precision 
agriculture play when it comes to other crops beyond row crops?
    Mr. Cameron. I will stick with one of our many, and that 
would be our processing tomatoes.
    We research varieties that we want to grow prior to 
planting. We look at yield data, university work that has been 
done, and then we deal with our processor who really tends to 
dictate our schedule of harvest. But when we look at a crop 
like that, we use precision irrigation for watering. We do 
petiole soil tests. We monitor the plant as it grows. We apply 
the fertilizer that is only what is needed and only the--we 
have irrigation scheduling. We monitor the inputs very closely.
    When we get to harvest, we harvest 24 hours, 7 days a week 
from early July until October. And when a load of our tomatoes, 
a 25 ton load of tomatoes heads to a cannery, we get a grade 
from the California Department of Food and Agriculture that I 
can access 5 minutes after the load gets to the cannery. It 
puts it by variety, by field. It will calculate the income from 
that load. It will show me any deductions that I may have. And 
like I say, it will give me a yield per field as we move 
through our different parts of the ranch. The technology is 
there. For a crop like that, the results help me in determining 
how to set our harvester as we progress on different varieties. 
And I guess that takes you to harvest. It is pretty intense, 
but it is very--really, the information we get instantaneously, 
but like I said, we either have to have a phone connection or 
the broadband.
    The Chair. And if you wouldn't mind just answering a couple 
questions related to that process?
    You said within 5 minutes you are getting information back 
from the cannery related to those tomatoes. When that is 
happening early in the season, based on that feedback, are you 
able to or do you frequently make adjustments to your crop 
based on what you are hearing back from the cannery?
    Mr. Cameron. Yes, we can make adjustments. We can either, 
we have electronics on our harvester that will actually put 
green tomatoes back on the ground. We may have an issue with 
the harvester. It will show us immediately. From the time it is 
picked to the time it hits the canner, the grade station, is 
probably within 2 hours or less. We can make adjustments to our 
harvester if we can get a hold of our guys. They can access 
this at 2 o'clock in the morning in the field, provided they 
have connection.
    Yes, it is extremely valuable and we will adjust. Moving 
forward, we will either slow down harvest or speed up harvest, 
depending on the quality we see. It is really informative.
    The Chair. Thank you very much, Mr. Cameron.
    Mr. Madison, with your experiences, if you could just talk 
for a moment about some of the precision ag technology that you 
employ on your farm, whether your experiences are similar in 
terms of your ability to adjust relatively quickly, or how it 
impacts your day-to-day operation in Virginia?
    Mr. Madison. Our biggest assets, as far as precision goes, 
are yield monitors, they kind of grade us at the end of the 
year, tell us what we did right, what we did wrong, or tell us 
if we tried something new, whether or not that worked. All of 
our GPS technology is somehow tied back to the precision work 
that we set up at the beginning of the year, whether it is not 
overlapping seed, not overlapping fertilizer, making sure we 
are putting everything really exactly where it needs to go.
    The big difference in commodity farming, after we get that 
grade at the end of the year, we don't get to change anything 
for 6 months. We don't get to change a lot on the go. There are 
some things maybe in season that we can do when we are making 
some fertilizer applications here and there, but overall, that 
is a really minor part of what we have used.
    The Chair. Thank you very much.
    I now recognize Mr. LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you.
    Mr. Cameron, you get the travel award here. As I note each 
week, it is about an 18 hour round trip here, and so to spend 
that many hours traveling and taxi rides and hotel rooms and 
all that stuff, you probably get a grand total of 20 to 25 
minutes of testimony time. I would like to throw it to you and 
see if there is anything you would like to touch on. I would 
give you a possible topic with water conservation. How about at 
the macro-level and how our lakes are managed and how much 
water is running out the delta and how beneficial that would be 
to capture more of that with more dynamic weather forecasting 
and reality that they are looking at a possible drought 
situation or a low rain situation in California, yet they are 
letting water out of Shasta Dam right now.
    So that, and opportunity for groundwater recharge, sigma 
coming down the pike. What would you say about the bigger 
picture of water conservation for California?
    Mr. Cameron. Water is always the number one issue in 
California. It is either the lack of or too much at the wrong 
time. We have an old infrastructure in place that needs to be 
updated. We need conveyance to move water to areas where it is 
needed. I mean, it would be great if it fell uniformly 
throughout the state, but it doesn't. It tends to fall as 
snowfall in the northern part of the state, and we have a 
difficult time moving it through the delta because of 
endangered species law that precludes some of the movement.
    You are right. We get a tremendous amount of water that 
goes out of the delta into the ocean. We figured out a long 
time ago that it was--we saw declining water tables in our 
region and decided to do something about it, and that was to 
take flood water and move it on farm and start recharging 
groundwater.
    But like I say, the projects like that are expensive. We 
got help from a grant from the Department of Water Resources in 
California. It was supposed to be a $5 million grant plus a $2 
million match on our side. Because of all the reporting, the 
environmental regulations that we had and hoops we had to jump 
through and agreements we had to get in place, it took us 6 
years from the time we got the grant until the time we started 
construction, which was last year. We hope to have it finished 
this year, but the price in the meantime went up to about $11 
to $12 million. We know that these projects are costly, but the 
growers in California understand without it the prediction is 
we are going to be seeing anywhere from \1/2\ million to 1 
million acres of farmland in central California being idled in 
the next 20 years with sustainable groundwater management.
    We need real solutions. We have a treasure. We have a 
national treasure in the San Joaquin Valley, and to see it sit 
idle because of a lack of water is wrong.
    Mr. LaMalfa. Yes. We have the opportunity to raise Shasta 
Dam 18, 600,000 more acre feet on those years that it would 
fill, and then the opportunity right now to be filling San Luis 
Reservoir. Do you draw from San Luis?
    Mr. Cameron. I do on one farm, but the majority is pumped 
groundwater, which is really under the microscope right now.
    Mr. LaMalfa. Does anybody disagree that the groundwater 
recharge and the infrastructure needed for that, does anybody 
disagree with those projects? Are there environmental groups 
that are against that?
    Mr. Cameron. From what we have seen, we have a great amount 
of support. Although I did find one person at a meeting that 
was outspoken that for whatever reason didn't think that was a 
good idea. We understand that, with groundwater recharge on 
farmland, you have to have a different set of best practices. 
You are going to have to farm differently, because we don't 
want to push nitrates into the groundwater, or any pesticides 
that we may have applied. We are doing a base study with 
Department of Pesticide Regulation currently at the state 
level, monitoring our water as a baseline before we really get 
into this heavily, and we are also doing ground radar with 
Stanford and UC Davis and Corring. We are going to be a test 
bed for groundwater recharge.
    We started the, like I say, the project in 2011 and we are 
the innovators to bring this in. It has now got a life of its 
own in California.
    Mr. LaMalfa. Yes. I know the Bureau is looking at 
rejiggering things a little bit on saving water in the 
reservoirs and using more dynamic weather forecasting on how we 
can more aggressively keep our reservoirs full and make more of 
this possible.
    Mr. Cameron. We would like to see a lot better long-term 
forecasting as well for agriculture. We have been neglected, as 
we have in other areas. Services have been cut back.
    Mr. LaMalfa. Well, we are working on it both ends. I 
appreciate your time and travel here, and to all of our 
panelists, thank you.
    I will yield back. Thank you, Madam Chair.
    The Chair. Thank you.
    I now recognize the gentlewoman from Washington State, for 
5 minutes.
    Ms. Schrier. Thank you, Madam Chair. I did have a couple 
more questions.
    Dr. Karsten, Washington State University is not in my 
district, but it is close to my district. And so, there is a 
phenomenal partnership between WSU and Agricultural Research 
Service and our farmers. And so, Washington State University's 
Center for Precision and Automated Agriculture Systems hosted 
an ag technology day last summer to look at automation and 
specialty crops. Experts from WSU, Washington State Department 
of Labor, Microsoft Farm Beats, and ASI robots explored the 
theme of automation and specialty crop production. I 
specifically wanted to draw attention to the amazing work that 
Microsoft Farm Beats is doing in Washington State. It is an end 
to end AI and IOTC system for agriculture that gathers data 
from sensors, cameras, drones, robots also to produce real 
actionable insights for farmers, and it can extend internet 
coverage, provided there is some somewhere near the farm, to 
the farm and it is resilient towards weather and power outages.
    I was wondering if you had similar partnerships? In 
Washington State, the natural one is with Microsoft, and we saw 
something similar in Israel where they had robots that were 
taking cameras and figuring out what was going on with plants 
there. What are some of the partnerships you have found?
    Dr. Karsten. First, I would say that I actually don't work 
in specialty crops. I am aware of some of the work that my 
colleagues are doing to improve these and develop these 
technologies such as using cameras and imaging and water 
sensors and other sensors in orchards and specialty crops.
    The work that I know is work that is being done by faculty 
with growers and extension, and some of it is free online. 
Well, some of it, I am sorry, the pest management data, for 
instance, so they can monitor pests are online and free. I am 
not aware of how they are working with companies in that area. 
That is in another production system.
    But my understanding is that that is a great opportunity, 
that they often do take advantage of in partnerships, because 
we can have more impact and we can benefit from understanding 
how we can improve those technologies, make them more cost-
effective, and help our students learn how to use them and 
extension educators also.
    Ms. Schrier. It has been incredibly helpful for farmers, 
because they can look at microclimates and figure out where on 
their field really needs more water and where it doesn't, 
similarly with micronutrients.
    I also just had a curiosity question, Mr. Cameron, since I 
have a tiny bit of time left. Water is so scarce in California. 
It is also scarce in parts of Washington State, so this is 
becoming a really common issue.
    I want to learn from California. How much attention has 
gone to choosing which crops to grow? Which ones require the 
least water and create the most food, for example? Has any 
attention gone to that topic?
    Mr. Cameron. Onto which crops use more water or less water?
    Ms. Schrier. I mean, I am sure I know the information, but 
kind of prioritizing how much yield you could get for how 
little water, and figure out which ones to grow.
    Mr. Cameron. Well, we know almonds made the headlines 
during our drought, and there have been several studies that 
have showed that actually deficit irrigation can still produce 
a very profitable crop and reduce the water footprint. We know 
that is the number one crop in California now with 1.4 million 
acres and continuing to increase. And you will see more of that 
as sustainable groundwater management is implemented. The water 
is going to go to the higher dollar crops. We know that. And 
those that don't make the cut will be gone.
    I think that, when you talk about reducing water, 
California has gone to micro-irrigation for the majority of 
their crops. Unless you have plentiful surface water, there is 
a big distinction between the two, and that is what has driven 
a lot of the technology in California, the high costs or the 
unavailability of water, to where we have become extremely 
efficient in the water usage on the crops we grow.
    Maybe we can do more.
    Ms. Schrier. Thank you. It's super interesting. We even 
found out that in Israel, they have found that brackish water 
makes their watermelons taste better, and so they have been 
able to use that.
    Thank you very much.
    Mr. Cameron. There has been brackish water being filtered 
and used in agriculture, yes, and blended.
    Ms. Schrier. Thank you. That is super interesting.
    The Chair. Thank you all for your testimony and your candor 
in answering our questions today.
    What I am hearing is really remarkable, and I hope others 
are hearing it, too. Farmers are at the forefront of adopting 
revolutionary new technologies that will enable us to meet our 
shared goal of food security, while at the same time carefully 
and strategically managing environmental impacts.
    I would like to take a moment to put the speed of this 
remarkable technological march into perspective. If the average 
age of the U.S. farmer is almost 60 years old, many of our 
farmers grew up farming with their parents, managing their 
crops using time tested tools of intuition and instinct, and 
many of those men and women farming today with their kids have 
the ability to generate a multidimensional digital model of 
their operations with extensive data on everything from crop 
health to input use to market intelligence, all while auto-
steer drives their tractor with the aid of GPS, and evidently, 
farmers and growers can watch movies while doing so. Perhaps 
most astounding is that all of this innovation has come in the 
span of a few decades in a generation, and rivaling the 
technological advances of any other industry.
    I hope you all are as proud of this American ingenuity as I 
am, and as Members of this Committee are, and I hope when we 
walk out of this hearing, we will have greater clarity not just 
about the conservation benefits of precision ag, but also about 
what is indeed needed to realize these benefits at scale. We 
have spoken a lot today about the need for broadband internet 
and the impact that lack of internet infrastructure has on the 
ability of farmers and producers to use these incredible 
technologies. And while the picture that I have described is 
true for many farmers, those without that access to broadband 
face financial uncertainty, as they are not able to implement 
the technologies that in many cases they have already paid for.
    As Representatives for our constituents and Members of this 
Committee, we have a responsibility to take up the challenge to 
improve the outcomes, not just on the fields and across 
ecosystems, but for our rural communities, the communities that 
are working tirelessly to put the food on the table that we all 
eat.
    I thank you all for joining us today, and I give a special 
thanks to agriculture and conservation expert Dustin Madison, 
who joined us from Louisa County in Virginia. And with that, I 
thank you all for your time. I thank you for joining us, and I 
now close this hearing of the Conservation and Forestry 
Subcommittee.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is now adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    Supplementary Material Submitted by Heather D. Karsten, Ph.D., 
   Associate Professor, Crop Production/Ecology, Department of Plant 
                               Science, 
    College of Agricultural Sciences, Pennsylvania State University
    Chair Spanberger, [Ranking Member] LaMalfa, and distinguished 
Members of the Committee, thank you for this opportunity to discuss the 
conservation benefits of precision agriculture, some examples of 
precision agriculture, barriers to adoption and the role of the land-
grant universities. Precision agriculture technologies and their 
potential applications for conservation benefits are diverse and 
significant. Precision agriculture technologies utilize spatial and 
temporal agroecosystem and hydrologic data in geographic information 
systems (GIS) software that can be linked to automate equipment 
navigation of agricultural operations such as planting and spraying 
operations via robotic technologies. In addition, real-time data from 
sensing technologies such as in-field sensors, remote sensing or 
thermal imaging can be integrated with GIS data and historical 
management data in decision support tools (DST) and decision support 
systems (DSS) (Drohan, et al., 2019). Agroecological and hydrologic 
computer simulation models are utilized in decision support systems 
along with other factors such as weather forecasts and/or economic data 
to provide farmers and land managers with site-specific management 
options that can result in reduced environmental impact and economic 
costs of agricultural activities. For instance, integrating maps of 
soil characteristics such as fertility, slope and drainage; crop 
yields, and pest infestations along with weather forecasts can enable 
managers identify zones for specific application rates of seeds, 
nutrients, pesticides and irrigation water at the optimal time with 
variable rate technologies (VRT). Similarly, livestock managers can 
utilize precision feeding to develop nutritionally balanced cost-
effective rations that meet the metabolic needs of livestock at various 
life stages without excess nutrients.
Adoption Barriers
    A recent analysis of multiple surveys on the adoption of precision 
agriculture since the 1990s, suggested some rapid adoption as well as 
barriers to adoption. Adoption of global navigation satellite systems 
(GNSS) with auto guidance and technologies such as sprayer control and 
planter row or section automatic shutoffs has been relatively rapid for 
agronomic crops (see Figure 3 from Lowenberg-DeBoer and Erickson, 
2019), while adoption of variable rate technology (VRT) has been 
relatively slow and ``rarely exceeds 20% of farms'' (see Fig. 4 from 
Lowenberg-DeBoer and Erickson, 2019). The study's authors summarized 
three hypotheses for the slow rate of adoption that were frequently 
described in the cited surveys: i. the cost of VRT was too high, ii. 
``more reliable VRT decision rules'' were needed, particularly for 
nitrogen; and iii. farmers weren't convinced VRT would increase their 
profits (Lowenberg-DeBoer and Erickson, 2019).
Fig. 3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Planted area by crop in the United States where Global 
        Navigation Satellite Systems (GNSS) auto guidance was used, 
        2000 to 2016.
Fig. 4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Planted area by crop in the United States where variable rate 
        technology (VRT) was used for any purpose, 1998 to 2016.

          Figures 3 and 4 from Lowenberg-DeBoer J. and B. Erickson. 
        2019. Setting the Record Straight on Precision Agriculture 
        Adoption. Agronomy Journal 2019 111: 1535-1551, doi:10.2134/
        agronj2018.08.0535.

    Additional adoption barriers that others describe include the need 
for technical expertise to install and operate precision technologies, 
the fact that new equipment is often needed to be compatible with the 
new technologies, access to broadband, and other factors that are 
summarized and shown below in Table 1 from Wolfe and Richard (2017).

   Table 1--Overview of barriers to the adoption of pro-environmental
  technological innovations (general and agriculture specific) based on
  literature review (from Long, et al. [31]. Sources are listed in [31]
                         and not repeated here.
------------------------------------------------------------------------
        Barrier                                           Sources
------------------------------------------------------------------------
Economic                High initial investments   (Bogdanski, 2012;
                        Poor access to capital      Brunke, et al.,
                        Hidden costs                2014; Cullen, et
                        Competing financial         al., 2013; del Rio
                         priorities                 Gonzalez, 2005;
                        Long pay-back periods       Faber and Hoppe,
                         (ROI)                      2013; Hoffman and
                        Switching costs/existence   Henn, 2008; Luken
                         of installed base          and Van Rompaey,
                        High implementation costs   2008; Luthra, et
                         (actual and perceived)     al., 2014; McCarthy,
                        Uncertain returns and       et al., 2011;
                         results                    Montalvo, 2008)
                        Temporal asymmetry
                         between costs and
                         benefits
                        Over discounting the
                         future
------------------------------------------------------------------------
Institutional/          Low institutional support  (Bogdanski, 2012;
 regulatory             Use of overly scientific    Eidt, et al., 2012;
                         language (Jargon)          Luthra, et al.,
                        Farmer's knowledge not      2014; Montalvo,
                         considered in R&D          2008)
                        Lack of regulatory
                         framework
                        Prohibitively
                         prescriptive standards
------------------------------------------------------------------------
Behavioral/             Lack of management         (Brunke, et al.,
 psychological           support/awareness          2014; Eidt, et al.,
                        Conflict with traditional   2012; Hoffman and
                         methods                    Henn, 2008; Johnson,
                        Overly complex              2010; Ratten and
                         technologies               Ratten, 2007;
                        Results/effects of          Sneddon, et al.,
                         technology difficult to    2011 ; Vishwanath,
                         observe                    2009; Wheeler, 2008)
                        Farmer's beliefs and
                         opinions
                        Low trust of advisers or
                         consultants/lack of
                         acceptance
                        Irrational behavior
                        Negative presumed
                         assumptions
------------------------------------------------------------------------
Organizational          Lack required              (Brunke, et al.,
                         competencies/skills        2014; Faber and
                        Poor readiness              Hoppe, 2013;
                        Poor information            Johnson, 2010; Luken
                        Inability to assess         and Van Rompaey,
                         technologies               2008; Luthra, et
                        Overly short-term/          al., 2014; Montalvo,
                         perverse rewards           2008)
                        Organizational inertia/
                         habitual routines
------------------------------------------------------------------------
Consumers/market        Poor information           (Bogdanski, 2012;
                        Lack market                 Bohnsack, et al.,
                         attractiveness/do not      2014; Brunke, et
                         align to preferences       al., 2014; del Rio
                        Uncertainty                 Gonzalez, 2005;
                        Consumers/farmers level     Johnson, 2010;
                         of motivation              Luthra, et al.,
                        Market uncertainty          2014)
------------------------------------------------------------------------
Social                  Social/peer pressures      (Montalvo, 2008)
------------------------------------------------------------------------

    For farmers with limited capital facing small profit margins, the 
capital investment required for new precision agriculture technologies 
and the technical expertise required can be significant barriers. Land-
grant university researchers and educators such as my colleagues at 
Penn State are currently working with farmers, the national 
laboratories (ex. ARS) and government agencies (ex. NRCS); as well as 
private-sector partners to develop low-cost technologies, open-source 
or free software, and decision support tools and systems that can be 
operated on smartphones or personnel computers. Land grants are also 
well-positioned to conduct objective, trusty-worthy assessments of 
precision technologies, while training students, educators, and the 
workforce to develop, improve and assist in the use of precision 
technologies.
    Decision support systems can empower farmers and producers to fine-
tune their management practices when coupled with economic incentive 
policies that promote adoption (Drohan, et al., 2019). Support for on-
farm assessment and peer-to-peer learning also appear to facilitate 
adoption of precision conservation technologies. A final report from a 
Penn State interdisciplinary research and extension project provides an 
example of what a DSS can provide. ``There is no one production 
practice that will make or break a herd's profitability . . . . 
Combining financial metrics with decision-making on cropping and 
feeding practices is still a challenge for both producers and 
consultants. . . . The bottleneck is how cropping strategies and animal 
performance influence the whole farm system and the impact to the 
bottom line. Unless nutritionists and crop consultants work with 
financials on a routine basis, it is unlikely they will embrace this 
aspect when working with their clientele.'' (Ishler, et al., 2019).
    Some examples of precision conservation technologies and DSS that 
offer promise of adoption are briefly described here. Decision support 
systems (DSS) that produce farm profit maps can enable farmers and land 
managers to identify opportunities to increase their profits while 
reducing their environmental impact. Agroecosystem DSS can identify 
field zones that are consistently low profit or unprofitable enabling 
land-managers to consider alternative managements. Low profit or very 
unprofitable zones are often zones of significant soil and/or nutrient 
losses associated with soil and landscape factors (Delgado and Bausch, 
2005; Muth, 2014) as illustrated in Figure 1 from Wolfe and Richard, 
2017. Such landscape features may also make zones particularly 
vulnerable to extreme weather events such as drought or flooding. For 
instance, a 2017 NRCS funded study of over 200,000 acres from nearly 
3800 fields on 136 farms in a dozen states found that (a) more than 90% 
of fields included zones that were losing money due to some combination 
of risks, and (b) over 50% of the unprofitable acres were also acres 
with substantial environmental concerns (Thomas Richard, personal 
communication 2019).
Figure 1 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Subfield economic analysis demonstrates high variability in 
        profitability, with a significant fraction of currently farmed 
        acres highly unprofitable for annual crops. Left panel: profit 
        in $ ha^<SUP>1</SUP>; center panel: change in Soil Organic 
        Carbon in kg ha^<SUP>1</SUP>, and right panel, nitrate 
        (NO<INF>3</INF>-N) leaching in kg ha^<SUP>1</SUP>.

          Figure 1 from Wolfe, M.L. and T. L. Richard. 2017. 21st 
        Century Engineering for On-Farm Food-Energy-Water Systems. 
        Current Opinion in Chemical Engineering https://doi.org/
        10.1016/j.coche.2017.10.005.

    Decision support tools that integrate landscape characteristics, 
with crop management history and yields; agroecosystem models, and 
economic analyses and sensor data can help farmers identify practices 
to reduce their production costs in low-profit zones and/or increase 
their cropping system resilience (Fig. 2. Wolfe and Richard, 2017).
Figure 2
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Figure 2 from Wolfe and Richard, 2017. Sustainable food-
        energy-water systems are enabled by an expanded precision 
        agriculture toolset that includes economic analysis, payments 
        for ecosystem services, and biomass markets, all managed 
        through decision support systems that go beyond inputs and 
        single crop management to innovative cropping system and 
        landscape design.

    Alternative management scenarios may include reducing fertilizer 
inputs and adopting conservation farming practices (Delgado and Bausch, 
2005, Muth, 2014, Capmourteres, et al., 2018; Amin, et al., 2019). In 
zones where annual cropping is unprofitable, the establishment of 
perennial plants for bioenergy, forage or other markets offers a viable 
economic alternative (Wolfe and Richard, 2017) such as shown below in 
Figure 6 from Brandes, et al., (2018).
Fig. 6
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Average annualized changes in net present value (DNPV) when 
        economically under-performing cropland is converted from corn/
        soybean to switchgrass. Values (in U.S.$ ha^<SUP>1</SUP>) are 
        calculated by dividing the sum of annualized DNPV by the total 
        corn/soybean cropland area per township. Gray areas represent 
        townships without any cropland economically viable in 
        switchgrass. The results assume USDA projected (medium) grain 
        prices, medium switchgrass price, medium switchgrass yield, and 
        that all land is owned by the farm operator.

          Figure 6 from Brandes, E., A., Plastina, and E. Heaton. 2018. 
        Where can switchgrass production be more profitable than corn 
        and soybean? An integrated, sub-field assessment in Iowa, USA. 
        Global Change Biology Bioenergy. 10, 473-488, doi: 10.1111/
        gcbb.12516.

    Planting perennials (Capmourteres, et al., 2018) and removing zones 
from production can also provide multiple conservation benefits for a 
relatively low cost. In Iowa, compared to similar watersheds that were 
100% row-cropped, planting only 10% of a corn-soybean field to prairie 
strips reduced sediment loss by 95%, phosphorus and nitrogen losses by 
90% and 85%, respectively; while also providing habitat for 
biodiversity, such as grassland birds and pollinators (Liebman and 
Schulte, 2015).
    Decision support systems (DSS) such as CropSyst (Stockle, et al., 
2014) or SWAT that integrate agroecosystem features and hydrological 
models, or climate projections have also been employed to evaluate 
various management scenarios such as nutrient management or projected 
climate change impacts and mitigation approaches (Stockle, et al., 
2014; Amin, et al., 2019). Land-grants researchers working with USDA 
ARS, other national laboratories, and ``big-data'' have developed 
multiple DST and DSS to provide growers with information to 
strategically reduce soil phosphorus and comply with nutrient 
regulations (Drohan, et al., 2019; Amin, et al., 2019); and to reduce 
production costs, pesticide applications, and crop damage from insect 
pests and disease infestation through free online real-time pest 
monitoring websites. A few examples of these free online precision 
technologies and additional precision DST and DSS that were developed 
or are under development at Penn State are described below.
    In conclusion, the strength of land-grants and Penn State is in our 
ability to bring together diverse faculty and extension educators to 
work with farmers, USDA partners, national laboratories, and the 
private-sector. With evidence of multiple opportunities for precision 
agriculture and conservation technologies to provide environmental and 
economic benefits, we are advancing their development, application, and 
our educational activities to support farmers and land managers in the 
conservation of our agricultural and natural resources.
    I thank the Committee for this opportunity to provide testimony and 
to address your questions. A brief description of some additional 
precision agriculture technologies that were developed or are under 
development at Penn State are described below.

  <bullet> PestWatch is a long-term monitoring program developed at 
        Penn State that has expanded from 200+ stations in the East 
        Coast, to 700+ stations nationwide (mostly MS river and east). 
        PestWatch provides guidance for individual producers on the 
        extent and location of various corn pests in the agricultural 
        regions of the eastern United States. The unique use of climate 
        and weather data within PestWatch has led to additional tools 
        for battling brown-marmorated stinkbugs, slugs, and the newly 
        critical insect pest, Spotted Lantern Fly. The core tool is 
        located at: http://www.pestwatch.psu.edu/.

  <bullet> Wheat Fusarium Headblight is the leading plant pathogen of 
        wheat in the United States and abroad. Penn State, along with 
        collaborators at Kansas State and across the Wheat Belt, has 
        developed the Wheat Fusarium Head Blight Prediction Center to 
        provide farmers with actionable information on this crop 
        pathogen. The Prediction Center, and it's associated map tool, 
        has been in continuous use and supported by the USDA Wheat and 
        Barley Scab initiative for more than 19 years. This tool 
        provides daily guidance for farmers across the entire U.S. 
        Wheat growing region. The tool is located at: http://
        www.wheatscab.psu.edu/.

  <bullet> Reducing the risk of crop damage by using drones, to monitor 
        air temperatures on nights when there is frost and sending 
        commands to ground robots with heaters mounted on them so 
        growers can target only those areas most at risk are protected, 
        while minimizing energy use.

  <bullet> Precision, automated irrigation systems (drip irrigation) 
        for tree fruit and vegetable crops that operate on soil 
        moisture sensors and IoT (internet of things) system. The use 
        of precision and automated irrigation systems can maximum the 
        water use efficiency (apply water at right time and right 
        amount), reduce the impact to the environment caused by the 
        nutrient leaking, and save energy and costs.
Predictive Models
  <bullet> Every winter, 30-40% of managed honey bee colonies in the 
        U.S. die. This is an enormous economic cost to beekeepers, and 
        threatens our food security since 75% of our major food crops 
        benefit from the pollination services of honey bees and other 
        insects. Using data provided by Pennsylvania beekeepers, a team 
        at Penn State and the USDA-ARS has developed models which can 
        predict winter survival rates with 70% accuracy. These complex 
        models integrate data on climate, landscape quality, and 
        beekeeper management practices. We have developed an online 
        portal, called Beescape, which allows individuals to evaluate 
        the quality of their landscapes for supporting bee health. We 
        are current integrating our predictive models into Beescape so 
        that beekeepers can understand the risk to their honey bees in 
        their locations, and take steps to improve bee survival. 
        Beescape can easily be adapted to provide information on other 
        measures of honey bee and wild bee health, including honey 
        production and biodiversity. This program is funded by USDA 
        NIFA and the Foundation for Food and Agricultural Research.

  <bullet> In soybeans, we have been working from an extensive dataset 
        (ten states, 3 years, just under 5,400 responses) to determine 
        under what conditions foliar fungicides would be warranted. We 
        have built a global models for (1) management factors, and (2) 
        management in combination with environmental and physiological 
        parameters, all with the goal to understand under which 
        environmental domains might a foliar fungicide show a positive 
        weight (i.e., influence positively the observed yield).
Remote Sensing and Decision Support Technologies
  <bullet> We are actively engaged in applied research to use a 
        combination of sUAS-based (drone-based) sensors, including 
        multispectral cameras and LiDAR sensors in both airborne and 
        terrestrial modes, to develop, test, and apply new techniques 
        to measure forest ecosystem attributes at scales ranging from 
        individual trees to forest stands. We combine emerging low-cost 
        reality capture sensors with a seamless user interface, through 
        custom software applications, to foster automation in the 
        forest industry. We aim to transform the current rudimentary 
        and labor-intensive mensuration methodology employed by 
        foresters through the what we've named the ``RealForests'' 
        system. RealForests fuses low-cost remote sensing hardware and 
        intuitive software design to allow for rapid data collection of 
        key forest attributes for forest appraisal and to support 
        management decisions. Easy data collection integrated into 
        existing field procedures is critical to market entry. Existing 
        algorithms have allowed our team to locate individual tree 
        objects and estimate critical measurements. RealForests will 
        allow the user to add information, such as species 
        identification, that can be linked to objects in the 3D model 
        of the forest created by the system.
References

 
 
 
    Amin, M.G.M., T. Veith, J. Shortle, H.D. Karsten, and P.J.A.
 Kleinman. 2019. Addressing the spatial disconnect between national-
 scale total maximum daily loads and localized land management
 decisions. J. Environ. Qual. doi: 10.2134/jeq2019.03.0120.
    Brandes, E., A., Plastina, and E. Heaton.2018. Where can switchgrass
 production be more profitable than corn and soybean? An integrated, sub-
 field assessment in Iowa, USA. Global Change Biology Bioenergy. 10, 473-
 488, doi:10.1111/gcbb.12516.
    Capmourteres, V., J. Adams, A. Berg, E. Fraser, C. Swanton, and M.
 Anand. 2018. Precision conservation meets precision agriculture: A case
 study from southern Ontario. Agricultural Systems. 167: 176-185. https:/
 /doi.org/10.1016/j.agsy.2018.09.011.
    Delgado, J.A. and W.C. Bausch. 2005. Potential use of precision
 conservation techniques to reduce nitrate leaching in irrigated crops.
 Journal of Soil and Water Conservation. 60(6): 379-387.
    Drohan, P., M. Bechmann, A. Buda, F. Djodjic, D. Doody, J.M. Duncan,
 A. Iho, P. Jordan, P.J. Kleinman, R. McDowell, P. Mellander, I.A.
 Thomas, and P.J.A. Withers, et al. 2019. A global perspective on
 phosphorus management decision support in agriculture: Lessons learned
 and future directions. Journal of Environmental Quality. 48: 1218-1233.
 doi:10.2134/jeq2019.03.0107.
    Ishler,V., R. Goodling, T. Beck. 2019. The Impact of Corn Silage
 Harvesting and Feeding Decisions on Income Over Feed Costs. Part of a
 Final Research and Extension Education report that was funded by NESARE
 USDA NIFA. April 11, 2019.
    Liebman, M. and Schulte, L.A., 2015. Enhancing agroecosystem
 performance and resilience through increased diversification of
 landscapes and cropping systems. Elem. Sci. Anth., 3, p. 000041. DOI:
 http://doi.org/10.12952/journal.elementa.000041.
    Lowenberg-DeBoer J. and B. Erickson. 2019. Setting the Record
 Straight on Precision Agriculture Adoption. Agronomy Journal 2019 111:
 1535-1551, doi:10.2134/agronj2018.08.0535.
    Muth, D. 2014. Profitability versus environmental performance: Are
 they competing? Journal of Soil and Water Conservation. 69(6). 203A-
 206A. doi: 10.2489/jswc.69.203A.
    Richard, Thomas. Personal communication. Oct. 20, 2019. Professor of
 Agricultural and Biological Engineering. The Pennsylvania State
 University. https://abe.psu.edu/directory/tlr20.
    Stockle, C.O., A.R. Kemanian, R.L. Nelson, J.C. Adam, R. Sommer, and
 B. Carlson. 2014. CropSyst model evolution: From field to regional to
 global scales and from research to decision support systems.
 Environmental Modelling & Software. http://dx.doi.org/10.1016/
 j.envsoft.2014.09.006.
    Wolfe, M.L. and T.L. Richard. 2017. 21st Century Engineering for On-
 Farm Food-Energy-Water Systems. Current Opinion in Chemical
 Engineering. https://doi.org/10.1016/j.coche.2017.10.005.
 

                                  [all]
</pre></body></html>
